<html>
<title> - THE NATIONAL PARKS: WILL THEY SURVIVE FOR FUTURE GENERATIONS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
     THE NATIONAL PARKS: WILL THEY SURVIVE FOR FUTURE GENERATIONS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2005

                               __________

                           Serial No. 109-66

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-406                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Mark Pfundstein, Professional Staff Member
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2005...................................     1
Statement of:
    Long, Gretchen, past Chair, Board of Trustees, National Parks 
      Conservation Association; Vin Cipolla, president, National 
      Parks Foundation; Emily E. Wadhams, vice president of 
      public policy, National Trust for Historic Preservation; 
      Denis Galvin, retired Park Ranger, former superintendent of 
      Yellowstone, Yosemite, and Everglades National Parks; and 
      J. Peyton Knight, American Land Rights Association.........    38
        Cipolla, Vin.............................................    55
        Galvin, Denis............................................    66
        Long, Gretchen...........................................    38
        Knight, J. Peyton........................................    73
        Wadhams, Emily E.........................................    59
    Martin, Steven, Deputy Director, National Park Service.......    10
Letters, statements, etc., submitted for the record by:
    Cipolla, Vin, president, National Parks Foundation, prepared 
      statement of...............................................    57
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    24
    Galvin, Denis, retired Park Ranger, former superintendent of 
      Yellowstone, Yosemite, and Everglades National Parks, 
      prepared statement of......................................    69
    Knight, Peyton, American Land Rights Association, prepared 
      statement of...............................................    77
    Long, Gretchen, past Chair, Board of Trustees, National Parks 
      Conservation Association, prepared statement of............    42
    Martin, Steven, Deputy Director, National Park Service, 
      prepared statement of......................................    13
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Wadhams, Emily E., vice president of public policy, National 
      Trust for Historic Preservation, prepared statement of.....    61


     THE NATIONAL PARKS: WILL THEY SURVIVE FOR FUTURE GENERATIONS?

                              ----------                              


                         FRIDAY, APRIL 22, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings and Norton.
    Staff present: David Thomasson, congressional fellow; Mark 
Pfundstein, professional staff member; Tony Haywood, minority 
counsel; and Jean Gosa, minority assistant clerk.
    Mr. Souder. The subcommittee will now come to order.
    Ranking Member Cummings is on his way and in traffic, so he 
said to go ahead with my statement, so I am going to go ahead 
and get started.
    Good morning and thank you for joining us.
    Today's important hearing, which we are holding during 
National Parks Week and on Earth Day, is the Washington 
overview for a series of hearings this subcommittee will be 
conducting on the challenges and potential solutions facing our 
National Park Service.
    From our beginning as a Nation, our natural beauty has been 
trumpeted within America and around the world. Thomas 
Jefferson's enthusiasm led directly to the Louisiana Purchase, 
which led to the Lewis and Clark expedition.
    From the Hudson Valley artists to the great artists who 
highlighted what have become our national parks of the West--
including Albert Bierstadt, Thomas Moran, William Henry 
Jackson, Thomas Hill and Ansel Adams--Americans developed a 
passion for the beauty of these areas. Today much of this art 
is still displayed by the National Park Service. John Muir and 
other naturalist writers built upon the base of these prints 
and early photographs, which are displayed at public 
exhibitions and through prints in people's home.
    The creation of the National Park system was a uniquely 
American idea. It has been said that Americans, without the 
hundreds of years of history of Europe, claimed our parks as 
the equivalent of the Grecian, Roman and Egyptian ruins--our 
Parthenon, Coliseum and Pyramids.
    Even before the actual creation of the National Park 
Service to protect these natural wonders, the Water Department 
began to protect Gettysburg and other battlefields. These so-
called ``cultural parks'' were merged with the so-called 
``natural parks''--when in actuality most parks are both, but 
with different primary emphasis. The National Park Service 
became the primary protector of the most valued places of our 
Nation.
    This background is important to understanding America's 
longstanding love of our national parks. It is historical, 
deep, consistent and unlikely to change.
    Park rangers consistently are voted the best-liked 
profession. Visitation by Americans is a family tradition that 
is often the best way to communicate our love of our country.
    Preserving wilderness and access to natural wonders is not 
only important to environmentalists more often associated with 
liberalism but to Christian conservatives who see in natural 
wonders the amazing glory of our Creator. For some, the parks 
are a place to wonder, others to reflect, others to teach, 
others to preserve wild spaces, others to commune with God, 
others to recreate. But we all love our parks. Because of this, 
there is tremendous public and political support for our 
national parks.
    But our parks are in peril. There are numerous reasons. 
Most simply, these are difficult budget times for nearly every 
public program. In reality, even in this time of tough budgets, 
the National Park Service has done better than most agencies 
that are funded with discretionary dollars. As legislators, we 
face difficult choices: Should there be extra dollars for 
health benefits for veterans, for AIDS prevention, schools, 
prescription drugs coverage in Medicare, new highways, national 
parks?
    In the process of weighing these decisions, we must have a 
balanced point of view that looks both at the present and the 
future. But once the Nation's wild spaces are gone, it is 
extremely difficult and expensive to recover or restore them, 
and sometimes it is not possible at all.
    It is expensive to tear down buildings that would buildupon 
important historic sites, but we have done it. But if 
Independence Hall or important sites like Angel Island, the 
Ellis Island of the West, disappear, the originals are done. 
Stands of Sequoia trees can't be replaced in multiple 
lifetimes. In Congress, we have an obligation not to abandon 
our responsibilities to future generations by solely focusing 
upon current problems.
    Less dramatically, the Park Service has multiple other 
missions as well. NPS not only has the duty to protect our 
Nation's treasures for future generations but to intelligently 
manage them for the appreciation of current Americans. This 
means that roads should be in decent shape. It means that 
restrooms should function. Visitor centers should be useful and 
visitor-friendly.
    A favorite word for national parks in this administration 
and many on the Hill is backlog. One of the many goals of these 
hearings is to better identify what this precisely means. Is it 
uncompleted projects? Wished-for projects? Annual maintenance? 
All of this plus more? How is it prioritized?
    But the backlog, which exists and always will, is not the 
only issue. Visitors want and seek interpretation. They want to 
talk to real-life rangers. They want up-to-date and accurate 
scientific information. If historical research has discovered 
new information, they want it reflected at the park. They are 
not taking their families on historic learning experiences to 
fill them with outdated or inaccurate information. Films and 
signs at visitor centers and throughout the sites, if not up to 
the latest standards of technology and information, should not 
be decades behind.
    The National Park Service is the greatest combination 
repository of historic cultural information in America. It has 
the actual sites, but much more. Journals at Valley Forge, 
rifles at Gettysburg, an incredible collection of artwork, at 
Mesa Verde invaluable artifacts from America's earliest days--
just to name a few.
    Add grizzly bears in Alaska, bats at Carlsbad Caverns, 
bison, birds of all sorts and varieties, fish, frogs to 
grasslands, mountains, lakes, dunes and massive wetlands like 
the Everglades and Big Cypress, and you have America's premier 
collection of natural history as well.
    Can these resources be better utilized in our Nation's 
education system?
    Ultimately, you can fix the backlog, but if there are not 
enough rangers or others to clean the restrooms, make sure the 
roads are maintained, greet the visitors, do the research and 
all the other tasks facing the Park Service, the National Park 
Service will not be serving the desires of the American public.
    While the Park Service has received increases in funding, 
we have added new areas of land to the system. The Park Service 
has faced rapidly rising health and pension costs for their 
employees. We are seeing national parks like Organ Pipe in 
Arizona overrun with illegal immigrants and drug trafficking 
such that a ranger was killed in a shootout and one of 
Arizona's top hiking trails is closed for safety reasons.
    Homeland security demands have been significant. The 
favorite targets mentioned by terrorists include many managed 
by the National Park Service. The Capitol Mall here in 
Washington immediately comes to mind, but also Independence 
Hall, the Statue of Liberty, the Gateway Arch, Mt. Rushmore, 
and even the land at both ends of the Golden Gate Bridge are 
all the responsibility of the Park Service. So while we've 
increased spending for the National Park Service, the 
challenges have overwhelmed the dollars available.
    The administration is taking many creative and innovative 
measures to try to stretch these dollars. Just because there is 
a decline in the number of personnel does not necessarily mean 
that services must decline. Every agency, including the 
National Park Service, must become more efficient. NPS works 
with the organizations presenting today, and others, to raise 
private dollars. Demonstration fees and other fees from camping 
to concessionaires add dollars to the system.
    The challenge we face in hearings such as this, as it is in 
every agency of the Federal Government under every 
administration--and we have seen this in this oversight 
committee--is getting specific testimony--the challenge is 
getting specific testimony on budget challenges. Every 
administration in every agency has OMB, the Office of 
Management and Budget, reviewing all testimony. I understand 
that, and we hope that OMB and this administration will allow 
the National Park Service to at least tell its success stories. 
We hope that employees will be allowed to speak freely when 
questioned and not just have to defend the status quo.
    As a strong Republican and an avid supporter of President 
Bush, I hope these hearings will be perceived as cooperative by 
the administration, but we are an oversight committee. Any 
appropriations must originate and go through the Appropriations 
Committee, but this committee is and always has been the 
primary oversight committee of the U.S. Congress. When 
Republicans took over Congress in 1994, we changed it to 
Government Reform because it is our specific duty through 
oversight to identify what is working, what isn't working, and 
recommend reforms. To do that, we must have comprehensive 
information, which we will obtain over the course of these 
hearings.
    Our witnesses today include many of the most informed 
people in America on the status of our national parks.
    Steve Martin is Deputy Director of the National Park 
Service, recently arrived from being the inter-mountain 
regional director. He has served as superintendent at numerous 
parks, recently at Grand Teton.
    Vin Cipolla of the National Parks Foundation, Gretchen Long 
of the National Parks and Conservation Association [NPCA], and 
Emily Wadhams of the National Trust for Historic Preservation 
represent three organizations focused on supporting our parks 
at the national level with State and regional affiliates across 
the country.
    Payton Knight of the American Land Rights Association is 
the premiere spokesman for concerns of the people most impacted 
by many parks' decisions, those who live in and around them.
    Denny Galvin is the former Deputy Director of the National 
Park Service, as well as former superintendent of numerous 
parks, including Yellowstone, Yosemite and the Everglades. So 
we thank you all for joining us today.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T3406.001
    
    [GRAPHIC] [TIFF OMITTED] T3406.002
    
    [GRAPHIC] [TIFF OMITTED] T3406.003
    
    [GRAPHIC] [TIFF OMITTED] T3406.004
    
    [GRAPHIC] [TIFF OMITTED] T3406.005
    
    Mr. Souder. First, let me do a couple of procedural 
matters. Before proceeding, I would like to take care of a 
couple of these matters.
    First, I would like unanimous consent that all members have 
5 legislative days to submit written statements and questions 
for the hearing record and that any answers to written 
questions provided by the witnesses also be included in the 
record. Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by the members and the 
witnesses may be included in the hearing record and that all 
members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    Our first panel, as is the tradition of this subcommittee, 
is the administration; and today it is composed entirely of 
Steve Martin, Deputy Director of the National Park Service. 
Because we are an oversight committee, it is our practice to 
ask all witnesses to testify under oath. So if you would raise 
your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative.
    Mr. Martin will now be recognized for his opening 
statement. We ask you to summarize in 5 minutes all opening 
statements; and any other statements, as you heard, will be put 
into the record. If you go over a little, that will be fine 
this morning, and we will allow for the questions too.
    Mr. Martin.

  STATEMENT OF STEVEN MARTIN, DEPUTY DIRECTOR, NATIONAL PARK 
                            SERVICE

    Mr. Martin. Mr. Chairman, thank you for the opportunity to 
appear before you today; and thanks for that opening statement. 
That was great as well.
    And, as you mentioned, I will submit a complete statement 
for the record.
    The stewardship responsibilities of the National Park 
Service have grown significantly in both size and complexity 
since 1916. Today, we manage 388 parks and other units, with a 
diverse array of natural and cultural resources covering 88 
million acres.
    Visitation at parks last year was about 277 million. 
Surveys consistently show that about 95 percent of visitors are 
satisfied with the quality of their experience when they visit 
a park. We have every reason to believe that the parks and 
other units of the National Park Service and the external 
programs we manage will continue to be highly valued by the 
American public and a critical and important legacy that each 
generation leaves to the next.
    President Bush has emphasized the importance of our 
stewardship responsibility by focusing resources on taking 
better care of our parks. We have had much success in reducing 
the maintenance backlog and in changing the way we manage our 
facilities. The administration and Congress have also supported 
steady increases in operating funds; and the administration has 
taken steps to improve management on several fronts, setting 
the stage for us to do more with available resources.
    The President's budget request for the National Park 
Service for fiscal year 2006 is $2\1/2\ billion, $2.2 billion 
in national park appropriations and $320 million in 
transportation appropriations. We received a $64 million 
increase for operation of the National Park System for fiscal 
year 2005, which increased parks base budgets nationwide.
    The fiscal year 2006 budget request would buildupon that 
growth by increasing operations by $50.8 million above the 
fiscal 2005 level, allowing for increases for paid benefits and 
other fixed costs.
    As for other sources, we anticipate receiving about $106 
million in revenue from recreation fees, national park pass 
fees, and transportation fees, and about $38 million in 
concession fees. In addition, the National Park Service also 
receives a great deal of financial and in-kind support from 
cooperating associations, friends groups and other 
partnerships.
    Many parks benefit tremendously from the work done by 
volunteers. Currently, about 140,000 Americans serve as 
volunteers in our parks.
    The maintenance backlog is a key issue. The fiscal year 
2006 budget meets the President's goal of investing $4.9 
billion over 5 years to address the deferred maintenance 
backlog. The fiscal year 2006 amount toward this goal is $1.1 
billion; $320 million of that amount is for park roads funding. 
It depends on full funding by Congress and the administration's 
proposal for the highway reauthorization bill.
    Through 2004, the National Park Service has undertaken over 
4,000 facility improvement projects. Visitors are now seeing 
improved trails, more accessible campgrounds, better visitor 
centers, better roads, stabilized historic structures, and 
reduced environmental threats. With more funding per cycle for 
maintenance, we are ensuring recent improvements will be 
maintained.
    In addition to funding, the National Park Service has 
developed a comprehensive asset management strategy that has 
enabled, for the first time in its history, the Park Service to 
inventory its assets and measure the condition of its 
facilities. During the last 3 years, we have produced a 
comprehensive inventory of our assets that includes 19,000 
buildings. We anticipate having comprehensive condition 
assessments for all 388 units by the end of 2006. This will 
enable the Service to target funds to the highest priority 
needs.
    On homeland security, since the September 11th attacks, the 
National Park Service has placed a priority on addressing 
security and law enforcement needs at icon parks, parks along 
the border and national park units that include critical 
infrastructures such as dams. Our law enforcement personnel are 
actively engaged in stemming the tide of drug cultivation, 
smuggling, illegal immigration, and tending to homeland 
security measures. We work closely with the Department of 
Homeland Security and other Federal, State, local and other 
agencies to coordinate these activities.
    We're also doing a number of things in management 
improvements. Some of those things will have a huge impact long 
term on our ability to continue to provide good customer 
service to our visitors.
    One area is concessions. Seven years ago, when Congress 
passed the new concessions law, the National Park Service 
Concession Program was in poor shape. With the help of business 
consultants we have made the program much more business-like 
and we have begun to professionalize our work force. Since 
2001, we have awarded 322 contracts, and by the end of the year 
we expect to have the total--we expect that total to be 447, 
which will reduce our backlog to about 100 contracts.
    We are also improving the way we manage partnership 
construction projects, projects such as visitor centers, that 
outside organizations are helping us with. We need to ensure 
that these projects fit our needs. We have implemented a 
comprehensive project review process that includes service by 
training, project tracking and accountability.
    In a third area, the National Park Service continues to 
make progress toward its goal of developing a scientific base 
of knowledge about park resources through the Natural Resource 
Challenge. This initiative has expanded existing inventory 
programs, developed efficient ways to monitor the vital signs 
of natural systems, and expanded natural resource conservation 
activities in parks. Park managers now have key information on 
the status and trends in park ecosystem health.
    We are also undertaking improvement of our business 
practices in several ways. The National Park Service continues 
to expand the use of the Program Assessment Rating Tool to 
inform budget formulation and program management decisions. We 
have developed a parks scorecard, which is an indicator of park 
financial health used to aid in identification and evaluation 
of base budget increases. And we have developed a core 
operations analysis that integrates management tools to improve 
park efficiency.
    Under another part of the President's management agenda we 
continue to pursue competitive sourcing, which provides a means 
for the National Park Service to evaluate its business 
practices and identify more effective ways to deliver service.
    Mr. Chairman, in summary, we are working harder and more 
effectively to meet the challenges of managing the National 
Park Service and the other programs the Service is responsible 
for. We appreciate the interest and the support of this 
subcommittee in our endeavors.
    That concludes my statement, and I would be happy to answer 
any questions.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Martin follows:]

    [GRAPHIC] [TIFF OMITTED] T3406.006
    
    [GRAPHIC] [TIFF OMITTED] T3406.007
    
    [GRAPHIC] [TIFF OMITTED] T3406.008
    
    [GRAPHIC] [TIFF OMITTED] T3406.009
    
    [GRAPHIC] [TIFF OMITTED] T3406.010
    
    [GRAPHIC] [TIFF OMITTED] T3406.011
    
    Mr. Souder. One of the things that I've talked about 
personally as we've discussed this hearing and one of the 
things that our subcommittee does in our primary oversight 
areas has been--because we do authoring and oversight on 
narcotics, but it's true of multiple hearings that we've done 
in this past week and some that we have coming up on a number 
of diverse issues beyond narcotics.
    Earlier this week, we did a hearing looking at Medicaid/
Medicare funding in cases like Terry Schiavo with HHS. We have 
one coming up with the Office of Faith-Based. We have HHS 
questions, Department of Education, things where we have 
oversight is to get documents, because that's what we do, we 
review. You mentioned a number of these, and I would like to 
make a verbal request to also give a--we will put it in writing 
so you have a written request--among these--and we will work 
precisely, what is the best way to do this and how.
    But toward the end of your testimony you said you had 
developed a park scorecard, which is an indicator of park 
operational and managerial health. We would like to see what 
that scorecard is, how you make that decision, and how 
measurements are done. I think it is admirable to try to do 
that.
    We're having this same discussion--and it has become a 
matter of discussion in the narcotics area. We are having--
Department of Defense, Department of Education, Department of 
HHS, Department of Homeland Security will all be testifying in 
the next 3 weeks; and one of the questions is, is when they 
made proposals to transfer, did they have such scorecards and 
on what basis are they making requests to do this.
    Because when we are being asked, as Congress, to look 
around and how to fund, it's helpful to know how decisions are 
being made. For example, the administration was proposing 
moving from HIDTA to OCEDEF--which are two lingo names inside 
the drug task force area--but had no scorecard to identify or 
measure. Therefore, basically, although it hasn't been 
officially announced, they're not getting their request; and 
it's going to stay the way Congress designed it.
    And as we look at these different parks and do the type of 
analysis, I think, A, it's good to have a parks scorecard. We 
would like to have a copy of that and then talk about it, and 
that may lead to other questions that come up as we move 
through the hearing process.
    Similarly, you mentioned that you have a core operations 
analysis to see how that is working. At some of the parks I've 
visited, I've had different people describe, as they were 
developing it, it was kind of a new phenomenon to try to put 
these type of business-type criteria in a lot of the parks. But 
as we try to work with the type of budgets we have, we need to 
see how--and that's particularly what this committee does in 
reforming operations as whole--and all the different 
subcommittees--is look at how these processes are being set up. 
Are the agencies doing it in a wise management way? How are 
they making this decision? And, quite frankly, how is Congress 
tinkering with them? It's not like we don't do earmarks and we 
don't cause chaos in your life as well.
    Also, could you tell me--you said that in this inventory of 
comprehensive asset inventory, which I believe the first time--
you have a lot of cultural assets at Golden Gate, and I 
remember them going through trying to do an asset inventory 
like this. You said they have all--you expect to have them all 
done at the end of 2006, and you have preliminary on 388. We're 
not really interested in seeing all the asset inventory of 
every park, but if you could give us some examples of how the 
inventory assessment is being done, where you think--and what 
do you think is being accomplished through the asset inventory 
management.
    Some part of this--from who I have talked to at the parks, 
part of this is you have so many structures there, having to 
determine which ones are going to be the priority in fixing and 
so on. Could you describe where you're going to use the asset 
inventory and how you see that being utilized and, also, what 
will be the most useful things for this committee to look at as 
far as asset management?
    Mr. Martin. In answer to the first part, we would be happy 
to share both the scorecard, which is a certain level of 
analysis and snapshot at the big picture, kind of being able 
to, at a glance, look at what is going on within all of the 
parks. And the core of operations is actually where we work 
with park staff to change, you know, kind of how we view 
priorities and how we view efficiencies and ways to save costs 
and other things. So we would be happy to, in much more detail, 
share that with you and your staff and can bring people in from 
the field or from our other offices.
    The whole concept of asset management is something that we 
have been working on for a number of years; and I think this 
most recent effort is, I would say, the most sophisticated and 
has been the most broadly embraced by the field. It's something 
that I think, you know, as you look back at our efforts to take 
care of an aging infrastructure and also a very significantly 
important infrastructure with our historic facilities, we had 
to begin to get a grip on how do we manage this? How do we seat 
priorities? How do we invest literally hundreds of millions of 
dollars that are going into maintenance and improvements and 
service? And are we doing it in the right way?
    We have actually--as the process has evolved, we have 
gotten better at it; and I think we are still improving.
    But in a given park, you go in, and first you just start 
with a building inventory, and then from that you actually--you 
know, working with park staff, working with outside groups, you 
do an analysis of what is the priority for maintenance, how do 
you organize this, what is your most important asset, if you 
can do that, or certainly set a band of most important.
    And then for all of them you go in--at Teton, where I was 
working, we got a group of people, including some engineering 
graduate students, to come in, and maintenance employees who 
had worked on these building for a few years, to go through and 
actually make a list of what kind of condition is this building 
in, what is the different building components, from the utility 
systems to the roof.
    It begins to then generate a data base that says, you know, 
these are the needs of the Park Service for the next few years 
and these are the needs of these key priority assets for the 
next few years. So we can begin not only to look at, you know, 
what has been termed as the backlog, but, really, how do we 
develop a program to maintain these assets for the long haul. 
Because that is really what we're all about.
    And also to make decisions on should we build a new 
facility, is the lifecycle cost of this building, if it is not 
a historic structure, so onerous that maybe the best thing to 
do is build a new one, or is this even an asset that we need. 
And we're finding in many cases that we have things that should 
be trimmed out of our building inventory because they're not 
useful, they're no longer functioning as they were designed, 
and it makes the most sense to do that.
    So it's a complex and I think a very good system. Like I 
said, it's really interesting because it's an initiative that 
this administration has been very supportive of, but it's also 
interesting to see the level of support by our chiefs of 
maintenance and other staff in the field, and I think over the 
next 3 years it will continue to help us make these decisions.
    Mr. Souder. As we move into the field and do more formally 
what I have kind of done informally in the last years in 
visiting parks and probably--I mean, our intention is to finish 
with the hearing and focus in on, OK, here we have now 
prioritized things, these things are going real well, these are 
things that we need to focus on more.
    I want to kind of plunge into the weeds of this area for a 
second before I go back and ask you some tradeoffs in what type 
of things we will look at, and let's talk about Grand Teton for 
a second. I want to give you a couple of examples--I'm not 
panicking you. I'm not headed anywhere specifically. I'm just 
going to use it as an illustration. Because when I visited 
Grand Teton and I told them this next piece of information, 
they immediately worried what my goal was. I didn't have a 
goal.
    Years ago--since I'm older now, many years ago, we stayed 
at White Grass Ranch, which is basically going to seed now. You 
can go through the area. I think it had asbestos. And I think 
that you made decisions to keep one ranch, but let others, as 
Grand Teton park went, go to more natural states like they 
originally were. This one wasn't torn down, but it's falling 
down gradually.
    I also was taken over to a--what would be, let's just say, 
a less sophisticated tourist--it wasn't a tourist ranch like 
White Grass, which was more or less a Rockefeller-funded type 
of a setup than was added to the park, one that was more a 
squatter, and then he had a couple of tourists. It was in 
terrible shape, and it was a question of should that stay or 
not stay. And the State Historical Society felt that it should 
stay because it was an unusual representation of that type of 
camp, unlike the other types of camp, and yet it was, in the 
visitor question, is Grand Teton a cultural or a national park?
    Similarly, there are whole ranges of questions like that, 
and what I'm kind of, by giving those two particular examples, 
asking is, in this asset inventory, how do you factor in 
variables of--and is it built into your system to factor in the 
tradeoffs of cultural/natural, the tradeoffs of things that may 
exist outside the park in a given State, or even from a 
national perspective of this is very unique, we have 100 of 
these in the system, so here is the balance.
    First off, just giving an asset inventory is a big step, 
then getting some criteria. But are these the type of value 
judgments that are in, or does it tend to be more mechanical of 
the cost, and then kind of a gut feeling for the tradeoffs? How 
does it----
    Mr. Martin. That's a great question, and it's something 
that we work on and struggle with, work with our partners and 
work with, you know, the outside groups like you mentioned, the 
historical societies and others, to make those choices.
    The asset management system is largely set up to have 
decisions like that made outside of it. You would make those 
kind of decisions that you're talking about through your 
general management planning. We do evaluations and inventories 
of historic buildings. We have a process that we've started--I 
wouldn't say real recently, but it's relatively new in Park 
Service terms--of looking at cultural landscapes. And the 
protection of resources is an evolution, you know, like many 
things within our culture, and so we're learning more about 
some of these assets, that we're now finding, you know, this 
historic resource might be really important, and it might even 
be important, interestingly enough, for telling a natural 
resource story. So we make those evaluations all the time, but 
largely they're done outside of the specific, more, I would 
say, you know, kind of process looking at engineering and 
deployment of funds.
    Now, the process, though, accepts those kinds of decisions. 
So as you rate the importance of your assets, as you determine 
what is our highest priority need, what is the most threatened 
of our resources, then you would incorporate those decisions 
into that. So it accepts that kind of information. But, 
generally, if it's significant information on what and how to 
save this building and should it be decided, that is done 
through one of our other planning efforts that includes quite 
often, you know, the NEPA compliance and other things. But it 
is compatible with that, and I think it will help us and 
allocate resources where they are most needed when we receive 
them.
    Mr. Souder. You alluded to the Individual Parks Management 
Plan. Is there a standard approach that a park management plan 
needs to be updated a certain number of years, or is that at 
the recommendation of the superintendent that this is becoming 
outdated? Since that is the kind of critical this-is-where-
we're-headed-over-the-next-period-of-time, then you're putting 
these other park scorecard core analysis and inventory 
management, how does a park--when I see these--Yosemite, for 
example, has been a real wonderful discussion on a park 
financial plan. How does it cycle through?
    Mr. Martin. We try to keep those planning--the nature--what 
we call either master plan or general management plan current. 
It does vary on the cycle of those. Some of those have been in 
place for a long time and have been amended where it makes more 
sense to just tweak it, as opposed to making wholesale changes.
    In a region like the intermountain region, at any given 
time, of our 88 units we will have 10 or 15 that are undergoing 
different levels of overall general management planning. And it 
really--it varies. If you have a park that is a new park unit 
that doesn't have one, that is a high priority because we need 
to work with the communities and work with our partners and 
also analyze the interests of Congress and others in the 
establishment of it. Are we meeting those challenges? And 
others, it is because the plans have become outdated.
    Like I mentioned, it is a continuum, it is a changing 
cycle, and they need to be updated just because of recognition 
of different resource needs, different operational needs, 
different visitor needs. So there is not any, you know, we do 
them all every 5 years, because in some ways the other thing 
that we found is that as we interact more--which we are very 
supportive of--with our public and others, it takes longer and 
it is more expensive to do them.
    So we do an assessment. OK, do we need this? Do we have the 
right guidance? Are we making the right decisions? And then you 
would move forward into the planning. But there are ways of 
amending, doing minor changes as well trying to keep ourselves 
relevant, keep us in compliance with the Environmental Policy 
Act, and keep us in close connection and cooperation with our 
neighbors.
    Mr. Souder. Do you have a backlog of management funds?
    Mr. Martin. Yeah. We have some needs in those areas, but 
part of that is that it is also--like a lot of things, you 
know, I think we have adequate funds to meet the key needs that 
we have right now.
    Mr. Souder. Could you also--this is kind of a side part of 
that, but a member from our park subcommittee asked this 
question, I believe, the last time, which is now 2 years ago, a 
National Heritage Area study that Congress had requested, I 
believe. If you could update this for our records that we 
have--I think you can process 8 a year, and we were backlogged 
20 the last time I heard, or 30, which would mean 3 to 4 years 
after Congress passes a bill for a study, we didn't get the 
study, and so sometimes we're actually then passing the 
heritage era before the study is done. Could you get the latest 
data on that, of approximately how many studies can be done a 
year, and what is the backlog on the number of studies?
    Mr. Martin. We'll get that to you.
    Mr. Souder. I yield to Mr. Cummings.
    Mr. Cummings. I want to thank you very much, Mr. Chairman, 
for holding this hearing.
    I will submit my opening statement for the record.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T3406.012

[GRAPHIC] [TIFF OMITTED] T3406.013

[GRAPHIC] [TIFF OMITTED] T3406.014

[GRAPHIC] [TIFF OMITTED] T3406.015

[GRAPHIC] [TIFF OMITTED] T3406.016

    Mr. Cummings. I'm just curious. You talk in your testimony 
about surges with regard to homeland security, and I was just 
wondering how do you--is there--do you expect the Federal 
Government to reimburse you for those special circumstances 
where homeland security is involved?
    Mr. Martin. Well, we've--I guess I'm not quite clear. You 
said that----
    Mr. Cummings. You said that the law enforcement capacity to 
surge in response to homeland security threats, to other 
emergencies that may affect iconsites in the park system, and I 
just want to know how does that----
    Mr. Martin. Right now, we have funding that allows us to 
respond within the park units to the critical homeland security 
needs. There has been an emphasis, we have received some 
additional money, and then we have also put a focus on it 
because we feel it is a really key national priority.
    Mr. Cummings. And what form does this usually take, in 
other words, these surges, these problems?
    Mr. Martin. You know, there is, I would say, a broad focus. 
We work with homeland security. If there is, you know, 
something that is brought to our attention or if we go to an 
elevated security level, we help with protection of the icons, 
dams. We have a lot going on along the borders. We are working 
with Border Patrol. So I would say it is pretty all-
encompassing for the breadth of the sites that we're 
responsible for.
    But right now we don't get reimbursed from that for 
homeland security. That is money that we have within our budget 
or is absorbed within our budget.
    Mr. Cummings. And when it is absorbed within your budget, 
does that affect anything else? I mean, maybe you have money 
hanging around, but they tell us there is not much money 
anywhere. And I'm just curious as to how that affects--does 
that affect staffing, for example?
    Well, first of all, how much money are we talking about.
    Mr. Martin. Well, again, it's really varied. I can get the 
exact amounts of money, but we've put roughly--and again, I 
will get you the accurate numbers--but we've put roughly a 
hundred million into infrastructure improvements, and we've put 
roughly now around $40 million into reoccurring, and some of 
that has been appropriations that we have gotten for those 
purposes, for strengthening borders, working with icons and 
doing other things. But I will provide you with the exact 
numbers.
    Mr. Cummings. So what I'm trying to get to is do you have 
some--so even before the fiscal year begins, you're already 
contemplating those kinds of things? Because it seems logical, 
logical that if you have a budget, and I assume the budget is 
what you need, and I'm assuming you're not asking for more than 
what you need since we're in such dire straits----
    Mr. Martin. Right.
    Mr. Cummings. But I'm trying to figure out what it is. Am I 
missing something?
    Mr. Martin. I think--right now, we have the money for what 
would be considered routine operations, and we program that 
out, and not just on homeland security, but that's--and, again, 
through some of the budget tools that we are looking at, it is 
enabling us to fairly distribute that over our, you know, what 
we consider our core and most important needs.
    Then, you know, the things that you can't anticipate, then 
you would reprogram. If we go into--if the Nation goes into a 
heightened state of emergency, then we're going to participate 
in that and we're going to do our part. And I think, like 
others, you know, we're going to find ways to make that happen.
    Again, I think it's something that, you know, you can't 
program for all contingencies, but we feel that we have the 
funds and the ability to meet, you know, our core 
responsibilities as they pertain to the homeland security 
within our budget, and we allocate that. And, again, recently 
we've received some additional funds for that, and I think that 
we're meeting those base needs.
    Mr. Cummings. Tell me--and you may have addressed this 
earlier--about understaffing. Do we have an understaffing 
problem anywhere?
    Let me tell you why I'm asking that. A young lady--I can't 
remember her name offhand--was fired here in the Washington 
area because she complained about insufficient security at the 
monument--at one of the monuments or monument sites, I think, 
if I remember correctly. Why are you shaking your head?
    Mr. Martin. No, I was trying to understand the----
    Mr. Cummings. A young lady who was a member of the Park 
Service, she was fired. It was a big story----
    Mr. Martin. Yeah, OK.
    Mr. Cummings. Do you remember it now?
    Mr. Souder. He's new.
    Mr. Cummings. I'm sorry, I didn't know you were new.
    It was a big story, front page of the Washington Post.
    Mr. Martin. Yeah.
    Mr. Cummings. I'm not going to get into all the details of 
her situation, but one of the things that she claimed was the 
fact that--with regard to homeland security and the fact that 
we needed to have a better situation with regard to those kinds 
of things, that we were--that there was understaffing. And 
eventually some higher-ups said you shouldn't have gone and 
told the public about the understaffing, and she basically 
said, well, I think I have a duty because, if something 
happens, then the public may be harmed.
    Now all I want to know is about staffing. One of the 
reasons I asked you the earlier questions is I'm trying to 
figure out, is there a financial problem when it comes to our 
situation, the climate of our country since September 11th? 
We've got--let me finish.
    Mr. Martin. Yeah.
    Mr. Cummings. We've got so many people who are trying to 
enjoy the parks. They are looking for things to do with their 
families that are inexpensive. We saw what happened down at--
although this is not related to you--in the Olympics a few 
years back where folks were injured because somebody--some 
demented person came and blew people up and that kind of thing. 
And so what I'm trying to get to is, where are we with regard 
to staffing? Does the climate post-September 11th call for more 
staffing? Do you have the resources to do that? And should the 
public feel safe when they go to our parks?
    Mr. Martin. Not only should they feel safe, but I think 
that they are safe.
    I believe that since September 11th we have stepped up to 
those needs, and I think--and that's one area where we have 
increased both our physical needs, you know, making sure we 
have adequate structures and other things in place to meet 
those needs, as well as staffing. So I feel that, you know, 
things are going well.
    On the other--it's interesting when you talk about needing 
a place to go, I think that parks are great places to visit. A 
study that was done a couple years ago showed that over a 2-
year period about 30 percent of people in the United States 
visited parks. So it is something that is happening. So, yes, 
we are doing that.
    Mr. Cummings. Thank you.
    You may be familiar with this, referring back to a CNN 
piece that appeared on their Web site--this is back July, 
2004--and it says, according to a study conducted by the non-
profit National Parks Conservation Association--are you 
familiar with that?
    Mr. Martin. Yes. Maybe not that study, but I'm certainly 
familiar with the organization.
    Mr. Cummings [continuing]. The entire Park Service operates 
on about two-thirds of the budget it needs, about $600 million 
short. And that about--and this is what they said, I'm not 
saying this--and that about $50 million of that shortfall stems 
from duties related to homeland security at the so-called 
icons. So you disagree with that?
    Mr. Martin. Yes.
    Mr. Cummings. How so?
    Mr. Martin. Well, I feel that, No. 1, that we are meeting 
our responsibilities when it comes to protection of our parks, 
protection of our visitors and our icons, as well as the 
others--and, again, I think we have many, many important sites.
    And I think that as we do some of our operations analysis, 
we're--you know, we're finding that to meet the core 
operational needs of the service that we're coming up with some 
different numbers; and we can provide you with some of those if 
you'd like some additional information.
    Mr. Souder. What we will do is we will work on a list of 10 
icons, ask what has been plussed up and where the rangers--that 
will be the simplest way to do it because they transfer 
rangers----
    Mr. Martin. And we have that information available, and we 
can get back to you fairly quickly.
    Mr. Cummings. Let me just finish this up, because I'm 
curious about this. I'm going back to this CNN piece. And by 
the way, the lady's name was Chief Teresa Chambers. I just want 
to give you this quote, and I want to see what your response--I 
know you're new, but I just want----
    Mr. Martin. And I'm somewhat familiar with that, so----
    Mr. Cummings. You are now?
    Mr. Martin. Yeah, I understand what you----
    Mr. Cummings. It says, in a memo Chambers wrote that the 
budget crisis put new hires in doubt, potentially bringing the 
Park Police staff to its lowest level since 1987 and seriously 
undermined her officers' ability to protect the icons.
    She goes on to say, my professional judgment, based on 27 
years of police service, 6 years as chief of police and 
countless interactions with police professionals across the 
country, is that we are at staffing and resource crisis in the 
U.S. Park Police, a crisis that, if allowed to continue, will 
almost surely result in the loss of life or the destruction of 
one of our Nation's most valued symbols of freedom and 
democracy.
    And again, in fairness to you, that is back in July, 2004. 
So I assume that even back then, based upon your knowledge, you 
would not have agreed with that statement; is that right?
    Mr. Martin. Yes.
    Mr. Cummings. And now assuming--let's play the devil's 
advocate--and this is not you, me--assuming--you want to read 
your note?
    Assuming that it's true--let's assume it's true. Has 
anything happened since then to make things--to increase the 
amount of money available for the Park Service Police?
    Mr. Martin. Again, I can't speak to the specifics on their 
budget but would be happy to provide that to you.
    That branch of the Park Police is one that is largely 
focused on the east coast and west coast, and certainly highly 
in this area. Coming where I did out of the Park Service, we 
had minimal interactions with them. We did that through our 
park ranger. We did our law enforcement through the park 
ranger. But I can provide that information for you.
    But what I do know and what I have been briefed on, and I 
think I have some firsthand knowledge, is that we're continuing 
to evaluate that. We are looking at the Park Police's budget. 
We are analyzing, again, both the physical security and the 
staffing security at these areas to ensure that those--that our 
homeland security needs and the needs of our icons are being 
met and the needs of all of our parks.
    Again, I really feel, you know, I visited 40 of our areas 
last year, 40 of our Park Service areas, and I really feel that 
we have been doing a good job in that area. And not that we 
aren't continuing to analyze, we are continuing to get 
additional information and we're continuing to improve, because 
a lot of this is not only new to the Park Service but it's new 
to the country. But I really feel like we're addressing those 
issues. But we can provide you specifics on exactly what has 
been going on within their budget over the last couple of 
years. I just don't have those figures off the top of my head.
    Mr. Cummings. In many of the parks you have to pay a fee, 
right?
    Mr. Martin. Yes.
    Mr. Cummings. You may have addressed this a little earlier, 
but, again, I'm going back to people with families. You know, 
it's expensive, if you've got a family these days, for somebody 
who is making--maybe a family is bringing in, say, $80,000, 
it's tough. And families are consistently looking for things to 
do with their children. And I'm just wondering how do you all 
address the issue of fees. How do you do that? I mean, do you--
--
    Mr. Martin. The fees are not, at this point, anywhere near 
what it costs to run a park. I would say that they're one of 
the greatest values that's available to the American public. 
And it's interesting, as we do our surveys, you know, I think 
it's right around 95 or 96 percent of the people who come to 
the parks are just--just rate us overall as things are good, 
and that includes, you know, the fees and other things.
    Not all of our parks charge fees. Many of our areas are 
open without fees. And everything from, you know, local areas 
to many of our bigger natural units don't. But many do. And 
it's been a great way for us--and especially recently, with 
what Congress is providing, not only do we collect them, but 
those fees go directly back into areas that improve visitor 
services, that improve our operations for the people that are 
coming.
    So it's a relatively small fee. Many of our areas have $3 
to $6 entrance fees per person, $15, $20 a carload. So it's, 
you know, those are really important moneys, but it's been 
always kept at a level where it's not a deterrent to 
visitation.
    Mr. Cummings. Is it increasing? I mean, is the number of 
people coming to our parks increasing?
    Mr. Martin. After September 11th there was a flattening, in 
some areas, actually, a decrease; and what we're seeing in the 
last year or two is that it is going back up. Again, I think it 
is just that readjusting, you know, like many things within our 
society. But what we're seeing now is our visitation in our 
parks is going back up again. Again, it varies site to site, 
but the overall trend is more people are coming, and it will be 
real interesting to see what goes on this year. But we're 
anticipating to see a trend in the increase of visitation.
    Mr. Cummings. This is my last comment, Mr. Chairman.
    I just had occasion to go to Topeka, KS, with regard to the 
Brown decision and saw what was being done there by the Park 
Service. They did just a phenomenal job. I'm not saying that--
not just what they have done with refurbishing the schoolhouse 
and what have you, but it was a tremendous event there. And I 
know the Park Service was very much responsible for making that 
happen, so I just want to pass on that compliment to your 
folks. I don't want them to think that those things go 
unnoticed.
    The thing that I also am concerned about is that people 
know about the parks, and I'm wondering how what is done to get 
that word out. I know that for myself, growing up in the city 
of Baltimore, as a child I probably went to one of our parks 
that you oversee one time in my first--not only as a child but 
in my first 30 years of life. So I'm wondering what is being 
done to make sure that word gets out to our inner city areas, 
our urban areas, and making sure that people everywhere know 
about this wonderful bargain that you just spoke about. It is 
one thing to have opportunity; it's another thing to know about 
it and to feel welcomed.
    So I thank you very much for your testimony. I'm sorry I 
missed the beginning of it.
    Mr. Martin. Thank you.
    Mr. Souder. Thank you.
    Since this is the initial overview hearing, and as we kind 
of build the layout, we will followup with some specifics on 
what visitation statistics and trend lines--would it be good to 
have a 5-year or 10-year? Also, to the degree possible that you 
can split natural parks and some of the cultural/historical and 
then particularly the recreation areas, things like Santa 
Monica and Golden Gate and Gateway, which have huge attendance, 
which are more urban parks.
    San Diego Missions Park, for example, illustrates part of 
the challenge we face in the park system. It's set up as a 
missions park but probably 80 percent of the utilization right 
now are Hispanic families picnicking in areas that weren't set 
up for picnicking, but it's some of the only open green space 
in a major open area. How do we adapt to the different cultural 
groups? How do we adapt to demands that weren't necessarily 
seen for this space? And then will they utilize and appreciate 
the history that's around them as you do that? And how many 
parking lots do you put in to accommodate that? But we're 
seeing different usage.
    Also, one of my personal interests, but we have not figured 
out to how to address this, but it's critical as we look at the 
demonstration fees, as we look at more contracted-out services 
from the hotels to the--where you eat is contracted is out, 
where the hotel is contracted out, where the gift store is 
contracted out. If you're going to hike a mountain, or at least 
climb a mountain, there will be a mountaineering service that 
you will pay a fee, if you want to ride on a horse. Now these 
fees aren't outrageous. They're cheaper than almost anywhere 
you will go.
    But one of the things that we have looked at--and there has 
been broad agreement in appropriations and authorizing to try 
to do something like this, but we haven't figured out how to do 
it in a fair way, and it's something I've been raising for 
roughly 6 years--and that is is that basically low-income 
people are exempt from that charge. Now, could you take it as 
a--not a deduction, but a credit on your tax form? Is there 
something that you can show when you are in the actual park? 
How do you do that without discriminating against individuals--
which we ran into with the school lunch program.
    But there is a willingness, because the number of 
individuals who will be impacted by this is small, and 
therefore it's a cipher in the budget. But psychologically it 
would be a major thing and might increase attendance in 
targeted groups. Because the challenge of the Park Service is 
always that parents are often more enthusiastic than the kids, 
that as you get older, you are more appreciative, the higher 
your income goes, the more you're appreciative, and the more 
your group gets mainstreamed, the more you are appreciative. 
So, initially, any immigrant group gradually comes in--this is 
not new. It's been going on this way for a long time. What 
creative ways can we do that?
    I would also like to know--and we won't have time to pursue 
this here, but it's something I'm going to be working at--is, 
in addressing the maintenance backlog and the challenges of 
general ongoing, how do you analyze what gaps you have in the 
park system? This has been a pet concern of mine, not really 
formulated here. But even when you look at Lewis and Clark, as 
you look at American heritage, you say, look, this is a site 
that maybe we ought to be looking at. If we look at African 
American heritage, this is a site we ought to be looking at; 
Hispanic heritage. As we authorize the Lincoln Commission, are 
there things that--related to Lincoln--that we don't have in 
the system? As you look back at how to maintain what you have, 
it is a philosophy of saying what you need to add, and that's 
what I was alluding to.
    I'm going to ask you two other--I'm going to ask you one to 
finish up so we can get to the second panel, and that is on 
roads.
    In 2001, only 35 percent of park roads were considered to 
be in good condition. And I want to know if it has gone up or 
down, and how much money do you receive from the Highway Trust 
Fund for maintenance of these roads? And what is the funding 
level necessary for the maintenance of the roads?
    Mr. Martin. I would say that is a key area in addressing 
our backlog and our needs to improve our facilities in the park 
and obviously something that's very important to visitation. We 
are in an interim where we are getting incremental amounts 
similar to what we have gotten in years past. And that number, 
I think it is in the neighborhood--if not, we can provide you 
the exact amount--around $170 million. We are within the 
President's budget. There is a request for $320 million, which 
would take us over that next 5 or 6-year period. We feel that, 
within our partnership with Federal highways and others, that 
with that amount, we can make a huge dent in our needs. And 
also, that is the amount that we can spend wisely. And that is 
the other thing; these are long-term commitments and goals. And 
so it is not only getting the funds, but, you know, what do you 
have the capacity to do? Yellowstone is a great example. You 
can only do a couple of road projects a year even though they 
have a tremendous need because it's during a visitation period. 
But we feel that target number would put us well on the way to 
improving that road condition.
    Mr. Souder. This highlights a couple of things that we will 
be looking at in the funding question, and that is a 
fascinating thing, particularly in the snowy areas and heavy 
visitation in the summer, how much can you actually do? That 
was an interesting example. In effect, most Members don't even 
realize it in the highway bill, that the National Park Service 
gets a huge amount of dollars. I think that is a fairly safe 
statement to make and that when we are trying to work out a 
tight budget and trying to get roads in our own districts that 
we can hold a press conference about, the National Park Service 
isn't high on any of our personal agendas unless it happens to 
be a park in your area. You are saying the President requested 
$350.
    Mr. Martin. $320.
    Mr. Souder. Roughly $170 is incremental in the way we're 
doing the budget now. Do you know in the bill--I presume there 
are some differences between the House and Senate figure in the 
proposed bill, if you could get that. The bottom line is, 
looking at a bill, currently under funding, you are receiving a 
lot less. For planning, you have a problem compared to the gap 
what you are requesting compared to what we are likely to fund. 
Now raising the point that Mr. Cummings made earlier that I 
have been talking to different committees about is in plus-up 
for homeland security. Here is the fundamental problem, the 
dollar figure that you use in your opening statement, while 
significant in dollar terms--and I have been doing letters with 
Mr. Lewis and other members to try to increase that each year, 
working with the appropriators and compared to a lot of places; 
the Park Service, like I mentioned, is doing OK. But OK means 
the figure you actually gave us looked like about 2\1/2\ 
percent increase; that your personnel costs are certainly going 
up more than 2\1/2\ percent. You are transferring and having 
to, in effect, rob Peter to pay Paul to cover, particularly in 
times of terrorist alert. You're now short on your road budget, 
that there is only--the question is--the tough question is what 
is being reduced when you are having to meet these increasing 
pension and health care costs? What is being reduced so we can 
make a case here? We need to understand what is being reduced. 
And that part of this is homeland security. I personally 
believe there ought to be a carve out in homeland security like 
there is in roads. If the government says that there is a 
heightened thing, and these are the things that may be hit, we 
don't necessarily want a ranger that is supposed to be 
protecting campers in Yosemite transferred to protect the 
Washington Monument. That's a homeland security question, not 
necessarily a traditional park service question. And why 
wouldn't that be handled in the homeland security budget like 
roads are handled in the roads budget? Similar in narcotics--
and I know--and this is one of the things we are going to look 
at as we get into these parks. This is not easy, as I see from 
these different parks, but it has to be addressed. You have--I 
mean, one thing you are trying to work to professionalize the 
park rangers, who historically have not had some of the 
challenges that they today face in urban parks and on the 
border. But using Morgan Park as an example, you can see the 
place littered with water bottles, or if it is black, it is a 
drug milk carton that was used. You see tire tracks being put 
across areas to pop tires of people trying to run either drugs 
or illegal immigrants in; a danger in being able to hike the 
trials. Big Bend is at times overrun in Texas.
    At South Padre Island, they say they have all sorts of 
things going up on the beaches. You can't even use the beaches 
on South Padre Island National Seashore, according to their 
rangers and superintendent. Needles coming up. It is a 
different type of a challenge when you are facing armed groups 
that are trying to invade certain areas of the territory 
because they are being pushed into these open spaces from the 
border. And we have to figure out how--and there are all these 
debates. Border Patrol, DEA, do you want them wandering 
through?
    We are even having cultivation as we heard in one of the 
parks out west and particularly in the forest areas of 
narcotics in those parks. And it is likely to grow. In fact, 
yesterday, in talking to the head of Colombia National Police, 
as we take out the coca planting, guess where they're going? 
They're planting them in the national parks of Colombia. You 
fly over the national park in Peru, and in areas along the 
Amazon basin, what they're doing is planting coca. They are 
stripping the trees, not for lumber. They're stripping it to 
plant coca and for cocaine labs. We have an interesting 
phenomenon here. As we have other problems intervening in the 
park, how in the world can you do your traditional functions 
unless we either figure out a direct way to fund these in the 
park project or figure out, should some be in homeland security 
or some be in narcotics like we do highways? First, we have to 
fund the highways. Anything else you want to add?
    Mr. Cummings. I hope you will take the testimony--you know, 
one of the things I found interesting about these hearings is 
that, unfortunately, people have to leave. They are very busy. 
I am not trying to get you to stay here because I know you have 
to do things. I am going to have to leave shortly myself, but 
let me say this, that they give their testimony and then they 
leave. It would be nice--I want you to take a look at the 
National Parks Conservation Association's testimony because I 
don't want you to, in other words, I want you to hear about 
what some of their concerns are. But I think it would be nice 
to take that with you, because I think that way you can--when 
you go back to your people, not only can you take our concerns, 
but you can take their concerns and probably all the testimony 
of our witnesses who are going to come up.
    Mr. Martin. And I appreciate that. And I think that we, you 
know, we do work together, and I think that's one of the things 
that as we met before this that the tone of the hearing is 
that, you know, what a great legacy to get to work together on. 
And I think we have, you know, great possibilities. I also 
believe that we are in a time of fiscal constraint. And I think 
that we have to--that makes for some stressful times. I think 
we are committed. The administration is committed. And it is 
represented in our budget from last year and in our proposal 
for this year that Congress is committed to all working 
together. So we have a responsibility to do well with what we 
have. And we have responsibilities to work with others to 
ensure the protection of the parks. And we appreciate the 
opportunity to do that. And we will take the testimony of the 
others and the reports and the continued dialog. Many of the 
people who will be on the next panel are ones that we work 
regularly with and have shared great partnerships and great 
successes with. So I will take that to heart and appreciate the 
interest, because you know, I think those of us who spent our 
career doing this are passionate about this task. And I think 
it is something that is a great legacy of the country.
    Mr. Cummings. Were you finished?
    Mr. Martin. Yes.
    Mr. Cummings. I think the chairman pretty much hit the nail 
on the head. The problem is, something's got to give. Something 
has to give. I mean--and I try to tell people this. We have to 
have balance in this country. We have to fight terrorism, but 
we better take care of the people in this country, too. You 
have to have a balance. And it's not your fault that there may 
not be enough money. But when I ask the questions and then the 
chairman--I mean, he went through a lengthy description of 
various parks and the problems that are taking place at those 
parks. And those are just the ones he mentioned. You begin to 
wonder whether the personnel piece is coming to a critical 
moment. In other words, it's going to take personnel to do the 
things he is talking about, and you almost seem like you have 
to have some policing here. And I don't want a situation where 
our parks are overrun with drugs. I don't want a situation 
where, as he stated, people come for a nice picnic and then--I 
mean, they come for one purpose and come to find out, the park 
is being used for a whole other purpose inappropriately, and it 
just doesn't work. What happens then is actually, you have a 
counterproblem going on because then people will come, and they 
will say, wait a minute, I thought we were coming to the place 
we came to 5 years ago. We have these wonderful memories.
    And do you know what they are going to do? They are going 
to turn around and not only are they not going to come back, 
but they are going to tell their friends and neighbors not to 
come back. That is what I am concerned about. Some kind of 
way--what we're trying to do is help you help the people who 
want to come to the parks. And if there's not--if there are 
insufficient funds to do those things, we are going to have to 
fight harder to try to get that money there. The American 
people simply--I would say about my district and I will close 
with this, Mr. Chairman--I say in my district--I live in 
Baltimore. They are not trying to get to Disney World. They're 
just trying to get to Kings Dominion. They are trying to get to 
a decent place for a reasonable price and have a good time. 
They are not looking for a filet mignon. They're just looking 
for some hamburger. And so it is scary to me if we get to a 
point where the one thing that one of the many things that this 
country has to offer with our taxpayer dollars to offer to 
families then begins to erode--you know, erosion, by the the 
way, just doesn't happen overnight; a little piece there, a 
little piece there, a little piece there, and next thing you 
know, we don't have have what we had a few years ago. And 
that's what we have to be concerned about, that we maintain the 
quality and maintain a reasonable fee structure so the families 
will feel welcome. I wish you the best.
    Mr. Souder. Thank you very much for your testimony.
    Mr. Martin. Thank you very much.
    Mr. Souder. If the second panel could come forward. Welcome 
all of you. And the first thing we do is to swear you in as you 
heard earlier. Our standard practice is to ask our witnesses to 
testify under oath. Would you each raise your right hand?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Thank you all for coming, and we will start with Ms. 
Gretchen Long, who is the past chair of the Board of Trustees 
of the National Parks Conservation Association which already 
has been thoroughly praised this morning.
    So thank you for coming today.

  STATEMENTS OF GRETCHEN LONG, PAST CHAIR, BOARD OF TRUSTEES, 
     NATIONAL PARKS CONSERVATION ASSOCIATION; VIN CIPOLLA, 
 PRESIDENT, NATIONAL PARKS FOUNDATION; EMILY E. WADHAMS, VICE 
    PRESIDENT OF PUBLIC POLICY, NATIONAL TRUST FOR HISTORIC 
    PRESERVATION; DENIS GALVIN, RETIRED PARK RANGER, FORMER 
    SUPERINTENDENT OF YELLOWSTONE, YOSEMITE, AND EVERGLADES 
  NATIONAL PARKS; AND J. PEYTON KNIGHT, AMERICAN LAND RIGHTS 
                          ASSOCIATION

                   STATEMENT OF GRETCHEN LONG

    Ms. Long. Mr. Chairman, thank you for the opportunity to 
testify before you today. I am as you say the former Chair of 
the Board of Trustees of the National Parks Conservation 
Association and continue as a current trustee. It is indeed a 
privilege to be here today as the subcommittee delves into the 
extraordinary challenges that do face our national parks.
    Since 1919, the 300-member nonpartisan National Parks 
Conservation Association has been the leading voice of the 
American people in protecting and enhancing our National Park 
System for present and future generations. I personally have 
had the privilege of visiting more than 200 units of the 
National Park System from walking the Freedom Trail in Boston 
where I grew up to hiking quite recently in Big Bend in Texas; 
from the marvelous canoeing trip in Gates of the Arctic to 
visiting the home of the Reverend Dr. Martin Luther King in 
Atlanta. And I, like millions of Americans, have sought 
inspiration, recreation, education and relaxation in national 
parks, places that are truly superlative examples of our 
country's magnificent resources and heritage and help us to 
teach our children and our grandchildren about who we as 
America are and what values we have that we struggle to uphold. 
We are grateful, Mr. Chairman, that you have dedicated this 
unprecedented series of oversight hearings to the condition of 
our national parks. We also very much appreciate your 
leadership in co-sponsoring the National Park Centennial Act 
which can do much to rectify the fiscal woes of the national 
parks.
    Over our 86-year history, NPCA has found that the most 
pervasive challenge facing America's parks is the failure of 
successive Congresses and Presidential administrations to fund 
them adequately. The national parks face two deficits, an 
annual operating shortfall that exceeds $600 million and the 
debilitating backlog of deferred maintenance projects estimated 
between $4\1/2\ million and close to $10 million. In addition, 
funding for the acquisition of nationally important lands has 
been drying up. To bring attention to these challenges, NPCA 
recently released, Faded Glory, Top 10 Reasons to Reinvest in 
America's National Park Heritage. This report, which has been 
provided to the subcommittee for the record, shows the 
debilitating effect of underfunding of the parks, some 
crumbling historic buildings, unsafe roads, theft of historic 
artifacts, loss of critical habitat to invasive and other 
worrisome threats.
    I will only highlight a few of the 10 reasons in my oral 
testimony: 90 percent of Americans say they are drawn to the 
national parks for educational benefits. Yet parks today have 
roughly one interpretive ranger for 100,000 visitors. This is 
about more than merely about touring a park, it is about the 
education of the next generation of Americans. When I took my 
children to national parks, we counted on park rangers who 
would teach us the history of the place, but no longer can we 
expect to see the face of a helpful ranger. I visited Lowell 
National Historic Park on a Saturday last month, and I was 
disappointed that, when I walked through the Boot Cotton Mill, 
I could not find a park ranger to answer my questions about 
textile factories or talk about America's experiences in the 
Industrial Revolution.
    Harper's Ferry National Historic Park, a short drive from 
here, must deny a ranger-led tour to three out of every four 
school groups that request it due to staff shortage. Here is, 
in relation to our previous discussion, the impact of the needs 
to meet other requirements affecting--having adequate staffing. 
At Everglades National Park, the Park Service last year had to 
cut ranger-led education programs from 115 per week to fewer 
than 40 per week. The more rangers disappear, the more our 
society loses a key tool for understanding ecology and for 
inspiring the next generation of Thomas Edisons or Martin 
Luther Kings in creating the next generation of leaders and 
scientists.
    Recognizing this problem, Congress intervened last year to 
increase operational funding for the parks. Despite the 
significance of that intervention, it barely kept the parks 
even in budget terms and did nothing to reduce the annual 
funding deficits the parks face.
    Visitor safety: It is also affected by underfunding. For 
example, backcountry ranger patrols in many parks are being 
reduced. As the former chair of the Board of the National 
Outdoor Leadership Schools, I know that risk management is a 
critical part of any backcountry experience and the backcountry 
rangers are a critical part of any large park's operation. 
Rangers who meet hikers in the backcountry provide information 
and advice about such things as avoiding conflicts with bears 
or warnings about dangerous weather. Ironically, search-and-
rescue operations cost parks far more than the funding of 
adequate backcountry patrols. But many park managers are being 
left with no choice other than to reduce patrols and wait until 
the next emergency strikes.
    Then, as discussed earlier, there are the roads. 
Approximately two-thirds of the more than 5,000 miles of 
roadways in the national parks are in poor-to-fair condition, 
according to the U.S. Department of Transportation. The road 
repair portion of the backlog exceeds $3 billion. In addition, 
the Department of Transportation estimates the Park Service 
will need $1.6 million over the next 20 years to meet transit 
demands. Yet the park roads and parkways program funded under 
the Transportation Equity Act of the 21st century provides only 
$165 million per year. The administration's proposal to fund 
the parks at $320 million, if enacted, can do more than any 
single piece of legislation likely to pass this year to begin 
to address this enormous shortfall.
    Near my home in Wilson, WY, in Grand Teton National Park, 
the park will unveil a new transportation plan this summer 
which includes new bicycle paths that are necessary to improve 
visitor safety after two tragic deaths of cyclists that were 
forced to travel on the narrow edges of roads. The roads 
constitute much of the infamous backlog of deferred maintenance 
projects. This backlog will require a significant leap in 
funding like the one proposed in the Centennial Act if we are 
ever to hope to solve this chronic problem. If recent funding 
trends continue, the picture I have described will only worsen. 
The current proposed increase for fiscal year 2006 will likely 
lead to more service cutbacks in the parks unless Congress 
substantially increases funding above the President's request. 
This is partly due to the traditional failure to budget 
sufficiently for the mandatory annual adjustment for government 
salaries. Unbudgeted costs of living adjustments have cost the 
National Park System approximately $50 million over the past 2 
years.
    While the Park Service proposal for fiscal year 2006 
attempts to account for most of the anticipated increases, the 
budget request for fiscal 2005 provided only 46 percent of the 
funds needed for staff pay increases. As a result, parks absorb 
those unbudgeted salary adjustments shrinking the funds that 
they rely on to cover toilet paper for the rest rooms, visitor 
brochures and seasonal rangers to protect and to educate 
visitors.
    The Park Service's budget woes are exacerbated by 
underfunded homeland security demands. According to recent Park 
Service testimony, security now costs $40 million annually. The 
Park Service receives no compensation from the Homeland 
Security Department for these costs. These increasing stresses 
on Park Service budgets not only jeopardize many of our more 
traditional parks but also innovative programs like the 
National Underground Network to Freedom. Congress created this 
unique park service-led partnership program in 1998 to preserve 
historic sites and promote partnerships to educate the public 
about the Underground Railroad, the informal network used by 
slaves to escape to freedom. However, this exciting initiative, 
which has the potential to add to the interest in and relevance 
of the parks for millions of Americans, is in serious jeopardy 
with insufficient funds to pay staff and with the modest 
$300,000 grant program eliminated from the President's proposed 
budget.
    Hand in hand with the need for funding is the need to spend 
those funds wisely. That is why NPCA has placed such a 
significant emphasis on providing the Park Service with the 
tools to develop business plans and to implement new approaches 
to operate more efficiently, such as we have done in a recent 
recommended plan on fleet management. Nearly 100 parks have now 
developed their own business plans, which we initially 
originated, but they need to do more. Park managers of every 
rank and position need a firm grasp of park systems laws, 
regulations and policies and need training in the art of 
professional management. And they need the tools to maximize 
the effectiveness of their dealings with concessionaires, 
volunteers, gateway communities, philanthropies and other 
partners. In 11 years, America will celebrate the 100th 
birthday of the National Park System and Park Service. While 
Congress established Yellowstone in 1872, no unified 
professional government agency for parks existed until 
President Wilson signed the National Park Organic Act in 1916.
    Mr. Souder. You are way over time.
    Ms. Long. Am I over the time? Let me finish with this. The 
creation of the park system requires bold vision, and we are 
grateful for that vision. If we are to maintain our 
responsibility and our legacy to realize the full potential of 
our national parks and to guard against their further 
deterioration, we need to consider, as your hearing is 
considering, ways in which we can strengthen and improve the 
National Park Service.
    [The prepared statement of Ms. Long follows:]

    [GRAPHIC] [TIFF OMITTED] T3406.017
    
    [GRAPHIC] [TIFF OMITTED] T3406.018
    
    [GRAPHIC] [TIFF OMITTED] T3406.019
    
    [GRAPHIC] [TIFF OMITTED] T3406.020
    
    [GRAPHIC] [TIFF OMITTED] T3406.021
    
    [GRAPHIC] [TIFF OMITTED] T3406.022
    
    [GRAPHIC] [TIFF OMITTED] T3406.023
    
    [GRAPHIC] [TIFF OMITTED] T3406.024
    
    [GRAPHIC] [TIFF OMITTED] T3406.025
    
    [GRAPHIC] [TIFF OMITTED] T3406.026
    
    [GRAPHIC] [TIFF OMITTED] T3406.027
    
    [GRAPHIC] [TIFF OMITTED] T3406.028
    
    [GRAPHIC] [TIFF OMITTED] T3406.029
    
    Mr. Souder. Thank you very much for your testimony.
    Next witness is Mr. Vin Cipolla, president of the National 
Parks Foundation.
    Welcome.

                    STATEMENT OF VIN CIPOLLA

    Mr. Cipolla. Mr. Chairman, my name is Vin Cipolla, and I am 
the president and CEO of the National Park Foundation. The Park 
Foundation was chartered by Congress in 1967 to encourage 
private philanthropic support of America's national parks. 
Thank you for the opportunity to appear today before the 
subcommittee to comment on national parks today and into the 
future.
    The mission of the National Park Foundation is to 
strengthen the enduring connection between the American people 
and their national parks by raising private funds, making 
strategic grants, creating innovative partnerships and 
increasing public awareness. The National Park Foundation 
operates above what we call the bright line of congressionally 
appropriated funds by contributing direct monetary support, 
goods and services to the National Park Service that add to but 
do not replace Federal appropriations. Over the past 8 years, 
NPF has enjoyed substantial growth, over $239 million in 
contributions and $217 million in total grants and program 
support to national parks across the country. The foundation's 
growth has been achieved with fundraising and administrative 
costs kept to a minimum. Money Magazine recently recognized the 
NPF as one of eight charities best at maximizing the percentage 
of donations going directly to programs supported.
    As I know you are aware, national parks have a long 
tradition of private philanthropy. National park philanthropy 
began with an innovative approach to preservation, purchase 
vast tracts of land and donate them to the Federal Government. 
A hundred years ago, simply converting land from private 
ownership to public ownership was all that was necessary to 
protect it for future generations. Today, whether it is funding 
new junior ranger programs that connect with today's youth, 
supporting volunteerism programs that empower citizens to care 
for the land, assisting with multilingual outreach efforts 
inviting new Americans to the national parks or backing park 
programs that bring classroom lessons to life, the National 
Park Foundation is bringing new and different approaches to 
preserving and protecting national parks.
    Just as the needs of parks have changed over time, so has 
philanthropy in this country. The opportunity before us is to 
bring these two traditions together. We have built on the 
conventions of public, private partnerships by developing 
innovative approaches to improve visitor services, increase 
volunteer opportunities, offer more educational programs and 
engage the community with their parks over the long term. The 
role of private philanthropic support is to fund inventive, 
cutting-edge programs in these areas and to ensure evaluation 
of those programs to determine their effectiveness. There are 
many levels of this support from the local friends, groups 
supporting individual parks to national partners like the 
National Park Foundation giving system-wide support to parks. 
Private philanthropy has traditionally been held in the hands 
of a few individuals and corporations whose commitment is 
strong, consistent and valuable. We view the future success of 
private support not only in the capable hands of Congress in 
these traditional partners, but also in the hands of the 80 
million-plus national park visitors and enthusiasts. The future 
of philanthropic support is both diversifying the opportunity 
you experience in national parks and also in diversifying the 
opportunity to support our parks.
    Along with our Board of Directors, I am committed to 
expanding the base of individuals that support our national 
parks directly. We want to engage these millions of park 
visitors and enthusiasts and take their love of these special 
places to the next level to ensure that their interest in 
financial support is manifested in direct support to national 
parks. We will use many of the new communication technologies 
available to reach the American public and connect them with 
their parks.
    I am new to the National Park Foundation. I am in my third 
week on the job, but not to the world of nonprofits, 
entrepreneurship and innovative technology. Ensuring the future 
of the national parks through the generosity of Americans with 
use of this new technology will be one of my top priorities in 
starting here at the National Park Foundation. The fabric of 
our Nation is strengthened and enriched through the unique 
cultural, historical and scenic beauty of our national parks. 
They inspire us and challenge us to understand more deeply 
American history, the American way of life and the natural 
processes that surround us. They can be powerful tools of 
education for our children and offer the very best of these 
United States to all who seek them out. Support for national 
parks ensures the very best of returns, not those of monetary 
value, but those values of preserving and protecting uniquely 
American principles. Thank you, Mr. Chairman, for your ongoing 
support of national parks and the National Park Foundation and 
thank you again for the opportunity to appear before you today. 
Thank you.
    [The prepared statement of Mr. Cipolla follows:]

    [GRAPHIC] [TIFF OMITTED] T3406.030
    
    [GRAPHIC] [TIFF OMITTED] T3406.031
    
    Mr. Souder. Thank you very much. Our next witness is Emily 
Wadhams, vice president of public policy at the National Trust 
for Historic Preservation.

                   STATEMENT OF EMILY WADHAMS

    Ms. Wadhams. Mr. Chairman, thank you for the opportunity to 
offer the views of the National Trust For Historic Preservation 
on the condition of our national parks and the need to support 
the National Park Service's substantial historic and cultural 
inventory. My name is Emily Wadhams. I am the National Trust 
vice president for public policy.
    We are concerned not only about the funding for the 
national parks themselves but also for a host of other National 
Park Service cultural resource programs and historic 
preservation in the States and communities around the country. 
Arguably, the National Park Service has responsibility for the 
stewardship of America's most significant historic sites and 
museum collections: 62 percent of the 388 park units managed by 
the Service were designated as historic or cultural in nature 
by Congress, and every one of them contains important 
prehistoric and historic places or collections. The Service's 
inventory their structures and reports that 55 percent of the 
approximately 26,000 buildings and structures under its 
stewardship are in poor to fair condition. National Park 
Service has relatively little data on the number of 
archeological sites in the parks, but for those sites that they 
do have data on, less than half are in good condition. To 
compound this situation, in 2003, approximately 370 incidents 
of vandalism or looting related to those sites were reported. 
Only 48 percent of the Service's museum collections which rival 
those of the Smithsonian in size and significance have even 
been cataloged. Of the park's historic landscapes identified, 
nearly 70 percent are in poor or fair condition. The National 
Trust has attempted to help by partnering with the Park Service 
to restore important but threatened buildings by raising 
private sector dollars for a number of parks including the 
McGraw Ranch and Rocky Mountain National Park and at White 
Grass, where we are supporting and encouraging efforts to raise 
funds to save the buildings as a Western Park Service Employee 
Training Center. But it is apparent that the National Park 
Service does not have the financial resources to document, 
repair and maintain these important cultural assets. This 
unhappy story of the conditions in the national parks does not 
end with the parks themselves.
    The National Trust feels compelled to draw your attention 
to the array of cultural programs that assist State and local 
historic preservation efforts that are managed by the Park 
Service, and I will highlight just a few of them: The National 
Register of Historic Places, which recognizes historic sites 
through a formal designation process. This provides eligibility 
for Federal grants, tax credits and is a very key component in 
the regulatory review process for Federal agency undertakings. 
Funding is inadequate; staff resources are strained. The public 
interest in this program is overwhelming. In 2004, there were 
145 million hits on the National Register Web site representing 
over 4 million individual users. Only a small percentage of 
those documents, however, are in digital format due to lack of 
funds. The National Trust is working with the Park Service and 
the National Park Foundation to find non-Federal dollars to 
bring this incredible record into the 21st century and make it 
more accessible to the public.
    The Historic Preservation Fund, also within the Park 
Service's purview, supports important State and tribal 
preservation programs and special grant programs. States 
receive matching funds to manage the State Historic 
Preservation Offices, a unique Federal-State partnership 
between the Park Service, the Advisory Council on Historic 
Preservation and the States. The FHPO activities range from 
historic surveys to heritage tourism programs to assisting 
Federal agencies and reviews of their projects on historic 
resources to assisting developers with rehab tax credit 
projects, which have the economic benefit of leveraging about 
$2 billion a year. In 2001, the FHPOs received $46.6 million. 
By 2005, that number has diminished to $35 million.
    There is a similar Tribal Historic Preservation Office 
Program. The number of certified tribes participating in that 
program has increased from 34 to 59 in 2 years, but the funding 
for this program is embarrassingly low, $3.2 million in 2005, 
and has not increased proportionately.
    The Historic Preservation Fund also includes Save America's 
Treasures Grants, a program in which the National Trust plays a 
significant role. The Federal grants require a 50-50 match and 
are made to nationally significant, threatened historic 
buildings and collections. Thanks to broad, bipartisan 
congressional support for SAT over the last 7 years, over $200 
million has been awarded in matching grants supporting 726 
nationally significant preservation projects in every State. 
SAT has leveraged private and public funds of over $23 million 
for projects like the south side of Ellis Island, Mesa Verde 
and Thomas Edison's lab. Other SAT projects include Akima 
Pueblo in New Mexico, Louisa May Alcott's home in Concord, MA, 
and Lincoln Cottage in Washington, DC. Lincoln's summer home is 
now being restored through a SAT. The National Trust is raising 
the match and coordinating the project, and the future plans 
include full public access and increased visibility through the 
designation of Lincoln Cottages and affiliated areas with the 
National Park Service as recommended by the National Park 
Service Special Resource Study.
    In 2004, Congress appropriated $30 million to Save America 
Treasures. The currently proposed budget cuts that in half. The 
entire Historic Preservation Fund that I have just gone over 
received $74 million in 2004. And the 2006 budget proposes a 27 
percent reduction for these important programs.
    Mr. Chairman, as we approach the centennial of the National 
Park Service in 2016, we strongly support your bill that would 
establish finally a dedicated fund to address the maintenance 
backlog for the national parks. We applaud your efforts to find 
solutions to the chronic underfunding for these places and 
programs that define our American heritage. The National Trust 
will continue to work with and support the Park Service in any 
way we can. As a Nation, we cannot afford to be derelict in our 
responsibility as good stewards of our unique and spectacular 
cultural national heritage. Thank you very much.
    [The prepared statement of Ms. Wadhams follows:]

    [GRAPHIC] [TIFF OMITTED] T3406.032
    
    [GRAPHIC] [TIFF OMITTED] T3406.033
    
    [GRAPHIC] [TIFF OMITTED] T3406.034
    
    [GRAPHIC] [TIFF OMITTED] T3406.035
    
    [GRAPHIC] [TIFF OMITTED] T3406.036
    
    Mr. Souder. Thank you very much for your testimony.
    Our next witness is Mr. Dennis Galvin, retired park ranger, 
former superintendent, former deputy director.
    Thank you for coming today.

                   STATEMENT OF DENNIS GALVIN

    Mr. Galvin. Thank you, Mr. Chairman. It is a pleasure to be 
in front of this committee again. I won't bore you with the 
details of my biography, but I have not been superintendent of 
Yellowstone and Yosemite, although I have worked in those parks 
extensively and in many other parks. I retired as deputy 
director in 2002. I was deputy director under three presidents, 
President Regan, President Clinton and the current Bush 
administration, until I retired.
    Many of the issues brought before the committee thus far 
are outlined in my testimony, and I want to congratulate you on 
your opening statement. I think it simply sums up the dilemma 
we face in maintaining a first-rate National Park System. I 
have a prepared statement, and I will submit it for the record. 
Mr. Martin mentioned the 96 percent approval rating, the 270 
million visitors. One in three Americans visited a park in the 
last 2 years, all based on surveys. In addition, many parks are 
hubs of regional economy so they are very important to local 
communities. People say the most-cited reason for their visit 
is sightseeing. The attraction of parks is their intrinsic 
quality.
    Over time, the vigorous protection of these park resources 
has enhanced, not encumbered, public enjoyment. I will spend 
the balance of my time, Mr. Chairman, discussing budget issues 
and how they affect individual parks. But for the record, the 
budget of the National Park Service has been decreased slightly 
since 2001. Now that is not true of the operations budget, but 
it is true of the overall budget. However, due to the emphasis 
of Congress and the National Parks Conservation Association, a 
great deal of attention has been focused on both the dilemma of 
park operations and the backlog. This committee and other 
committees have held hearings on that.
    Last year, the park-by-park increase for the individual 
parks, not for the operations budget as a whole, increased by 
6.1 percent, and that was, as far as I know, certainly in 
recent history, the largest increase at the park level in the 
history of the park. So all involved need to be congratulated 
for that.
    Let me say a little bit about how individual parks budget 
for increases. There is a standing file of increases that parks 
can contribute to at any time. And there is also a standing 
file in which parks can put their project needs into--they have 
acronyms. So parks can catalog their increases at any time. 
When a budget is put together, those increases are looked at. 
Now sometimes there is an emphasis placed on the budget by a 
given administration. One year it might be coral reefs. Another 
year it might be homeland security. What the regional offices 
and the Washington office do in those circumstances is go into 
the standing file and look for coral reef projects or homeland 
security projects. And the effect of that over time has been 
inattention to this business of fixed costs that you outlined 
in your statement, that you talked about in your questions and 
that the NPCA witness outlined. And as a result, many years at 
the park level, the pay increases and the rising costs exceed 
what they get out of the budget, in effect. And even though you 
can look over years, and every administration does this, and 
say, well, over the last 10 years, we have increased the park 
budget by 20 percent; if you look at this record on fixed 
costs, you will find at the park level, many times a park is 
going backward. What do they do? They lay off people, 
seasonals, or they don't hire permanent employees.
    The air quality specialists at Shenandoah are a perfect 
example, a park that has a significant air quality problem, has 
a vacant air quality position. Why is that? I'm guessing, but 
it is an educated guess, because not showing one permanent 
position allows the superintendent to fill three or four 
seasonal positions. So over time, that kind of rational 
decisionmaking results in parks not filling critical permanent 
vacancies. And many park budgets are 90 percent salaries. They 
should be 75 percent, in my experience.
    Now, finally, a few words about the backlog. If you look at 
the infrastructure at the National Park System, it essentially 
was built in two periods of history: in the Franklin Delano 
Roosevelt New Deal Era, when the emergency conservation work 
and CCCs built the basic infrastructure of parks; and beginning 
in the Eisenhower administration with Mission 66, which was a 
10-year program after World War II to renew the infrastructure 
of national parks. We talked about Grand Teton earlier. That is 
a classic Mission 66 park. Except for a few rustic housing 
units, everything in that park was built in Mission 66, which 
is to say it was finished about 40 years ago.
    Let me give you one example of how that history affects a 
given asset in a park. The Old Faithful sewage treatment plant 
at Yellowstone was built during Mission 66. It's being 
reconstructed right now, so it's not a problem. Here's the 
dilemma when that sewage treatment plant, Old Faithful, was 
closed in the winter. There was no food service and no visitors 
to Old Faithful. The design theory behind that plant was, you 
close it down for the winter and you switch to a septic tank. 
Has no heating inside. And so when winter visitation--now 20 
years of winter visitation comes to Yellowstone--you are 
dealing with an asset that not only faces maintenance problems, 
but it is simply obsolete and can't meet current-day 
conditions.
    One thing to look at in the facility condition index is OK, 
this facility has been maintained properly, but does it have a 
modern day function? Is it meeting modern day loads? At the end 
of Mission 66, there are 140 million visitors to parks. There 
are more than two times that now, and there has been 
concomitant investment in park infrastructure.
    Another example, I think, of changes in the National Park 
System, are that the principal changes that affect 
infrastructure have been inheriting large military bases, 
industrial complexes. Lowell was mentioned, south side of Ellis 
Island, the Presidio, Gateway, which included many military 
facilities. When you get those undeniably nationally 
significant assets, you get a lot of buildings. The only way to 
solve that problem it seems to me is through partnerships and 
leasing, because they don't really have--far more square feet 
than a park needs or uses.
    I will close with a story, Mr. Chairman. One of the great 
advantages of being retired is the opportunity to explore these 
parks in depth and at leisure. Two years ago, I stood at the 
cemetery at Gettysburg and watched a father place his two small 
children in front of the Lincoln bust under which there is a 
text of the Gettysburg address. He translated the Gettysburg 
address for those children into their native tongue. No 
statistic will ever capture that moment, but for me, it 
illustrates the power and potential of the national parks' 
enduring mission and the enormous importance of national parks 
as educators of our citizens and protectors of our heritage. 
Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Galvin follows:]

    [GRAPHIC] [TIFF OMITTED] T3406.037
    
    [GRAPHIC] [TIFF OMITTED] T3406.038
    
    [GRAPHIC] [TIFF OMITTED] T3406.039
    
    [GRAPHIC] [TIFF OMITTED] T3406.040
    
    Mr. Souder. Thank you.
    Our last witness on this panel is Mr. Peyton Knight, who is 
the executive director of the American Policy Center and 
Washington, DC, representative for the American Land Rights 
Association. Thank you for coming today.

                 STATEMENT OF J. PEYTON KNIGHT

    Mr. Knight. Thank you, Mr. Chairman and thank you for your 
comments earlier.
    I have submitted a written statement for the record. Quite 
frankly, America's park system is in trouble. Our Nation's 388 
national parks, historic sites, battlefields, landmarks, lake 
shores, recreation areas, scenic rivers and trails have an 
estimated collective maintenance backlog of between $4.1, $6.8 
billion and, according to Ms. Long, could be as high as $10 
million or $10 billion. Yet as this crisis continues to 
snowball, Congress has not done enough to strike at the heart 
of the problem. Will our national parks survive for future 
generations? The answer is, no, unless Congress acts 
responsibly and reins in the ravenous appetite of the National 
Park Service and Federal land acquisition programs.
    The Federal Government currently owns almost one-third of 
America's total land mass. NPS is assigned for caring for much 
of this property. It clearly can't handle its current 
responsibility. How on earth does it make sense to give it 
more? In order to solve this crisis, Congress must make a 
sincere commitment to curb all future NPS programming and 
acquisitions and scale back expansion plans that are already in 
the pipeline that are only going to add more fuel to the 
backlog fire. You simply can't pledge more funding at one end 
and continue it with out of control expansion at the other. It 
only exacerbates the problem. This reckless expansion threatens 
the future of our Nation's National Park System and undermines 
the ability of the agency to meet its commitments to future 
generations.
    According to the National Parks Conservation Association, 
public safety and public access rank high among the casualties 
of our overdrawn park service. Yosemite National Park in 
California desperately needs everything from trail and 
campground maintenance to a new sewage system and electrical 
upgrades. Yellowstone has decrepit buildings and over 150 miles 
of roads that need repair. In Mount Ranier National Park in 
Washington, travel to backcountry cabins is impossible because 
of neglected bridges and trails. The foundation at the visitor 
center of the USS Arizona Memorial in Hawaii is crumbling and 
literally falling into the ground.
    When public access to parks isn't taking a backseat to 
scarce resources, the Park Service is actually promoting 
spending money to shut people out. The Park Service's Yosemite 
Valley Plan would cost close to a half billion dollars and 
would actually reduce the number of parking spaces by two-
thirds. Instead of being able to leisurely enjoy the sites and 
wonders of Yosemite, this grand plan calls for the park patrons 
to be herded on to a fleet of buses and shuffled through the 
park on the Park Service's schedule. Under the plan, hundreds 
of camp sites that were destroyed in the 1997 flood would not 
be replaced and nearly 60 percent of the park's remaining 
campsites accessible by car would be removed. The National Park 
Service is quickly earning the moniker of our Nation's slum 
lord. And Congress's response should not be to award NPS with 
more property and more programming.
    Rather Congress should seek to scale back the Park 
Service's duties until manageable levels are attained. The 
National Park Service is already slated to receive $2.2 billion 
in the next fiscal year. That is almost $1 billion more than it 
received just 10 years ago. The real answer to the Park 
Service's maintenance woes is fewer holdings and programs. For 
Congress--unfortunately, Congress seems determined to ignore 
this solution and drive the Park Service and our national 
treasures into further disrepair. For example, the House and 
Senate this year are moving to create a National Heritage Areas 
Program. Heritage areas are permanent units of the Park Service 
and, therefore, lifelong dreams on already scarce resources. 
Even more importantly, heritage areas are Federal land-use 
mandates foisted upon local communities. Heritage areas are 
being sold to Congress under false pretenses. Proponents claim 
that these areas are simply temporary funding grants, seed 
money that is scheduled to sunset once the area becomes self-
sufficient. Predictably, this has not happened with current 
heritage areas. These pork barrel land-use schemes are forever 
dependent on Federal funding because they lack local interest. 
Ten years ago the late representative Gerald Solomon strongly 
warned that heritage areas are targets for increased land-use 
control by the Park Service as well as funding drains on the 
agency. In Solomon's letter he wrote, ``I urge you to defend 
property rights and strongly oppose the America Heritage Area 
Participation Program. The environmentalists advocating this 
bill have Federal land-use control as their primary objective. 
This bill wastes tax dollars that can be more appropriately 
spent on maintaining our national parks.'' And he goes on. He 
would be appalled to learn that Congress is pushing harder than 
ever for a National Heritage Areas Program when the Park 
Service's problems have only increased exponentially since he 
penned this letter.
    When the Federal Government acquires property, it compounds 
the current crisis in two ways. One, it adds more property and 
burden to the maintenance backlog, but it also removes private 
property from the tax rolls, thereby reducing funds that could 
help address the current crisis. In spite of this, a provision 
currently sitting in the Senate budget resolution would earmark 
$350 million guaranteed every year for the next 3 years for the 
Land and Water Conservation Fund. That's over $1 billion not 
subject to annual appropriations for Federal and State 
governments to buy up more private property. Fortunately, the 
House budget resolution includes no such nonsense, but 
representatives must make certain that the final conference 
report is free of this land grab boondoggle. The future of the 
National Park Service also depends on how the agency is viewed 
by the public. Unfortunately, NPS has shown itself to be a bad 
neighbor with a history of hostility toward land owners in 
local communities. Through programs like the National Natural 
Landmarks Program, NPS has run roughshod over many private 
property owners. Though advertised as voluntary benign 
designations to inform landowners of the natural features of 
their property, as if they weren't already aware, the program 
is in fact a feeder system for future NPS holdings and 
crackdowns. One day, the Park Service knocks on your door and 
hands you a bronze plaque honoring your property. The next day, 
you find your property ensnared in a quagmire of planned 
progressively stronger land-use prohibitions and sometimes 
outright acquisition. In a great number of instances, the Park 
Service has been found to be trespassing and snooping around on 
private party, evaluating it for landmark designation without 
ever notifying the landowner. The most prevalent abuse occurred 
in Maine where the Park Service routinely ignored its own 
notification rules and refused to inform landowners of pending 
designations. In fact, the Park Service was working in 
collaboration with environmental organizations and land trusts 
targeting private property for future landmarks.
    Syndicated columnist and author Alston Chase documented 
several examples of Park Service misdeeds under this program. 
For example, Jim Shelly, a New Mexico rancher, didn't even 
learn that his property was being considered for landmark 
designation until a friend noticed it in the Federal Register. 
The Nature Conservancy had evaluated Mr. Shelly's land for the 
Park Service without his knowledge. Lucy Wheeler of Vermont 
became suspicious when she noticed mysterious survey markers on 
her land. NPS officials were in fact sneaking around her 
property and neglected to inform Ms. Wheeler, because, as they 
reported, she was already, ``sensitive.''
    Because of this controversy, a moratorium was placed on the 
landmark program. However, it has been lifted about 6 years 
ago. It is far past time for the Park Service to locate and 
notify victims of this debacle and seek their written 
permission for inclusion in the program. If the Park Service is 
not willing to reconcile its misdeeds, then the Natural 
Landmarks Program ought to be abolished.
    In summary, if the Park Service is to survive for future 
generations, the agency's holdings and programming must be 
scaled back. Congress should direct the Department of Interior 
to take a careful inventory of its current holdings and 
determine which of these properties would best be turned over 
to States or sold to private interests. Undoubtedly, there are 
many national parks and recreation areas that have no business 
on the Federal dole. Some examples would be the Santa Monica 
Mountains National Recreation area in California or the Gateway 
NRA in New York. These properties might make good city or State 
parks, but American taxpayers nationwide should not be forced 
to carry this burden. Congress should also make certain that 
the Federal Government does not swallow any more of our 
Nation's land mass. The No Net Loss of Private Land Act, S. 
591, would help in this regard. The bill's sponsor, Senator 
Craig Thomas, notes it is time for Congress to protect the 
rights of private property owners and instill some common sense 
into the Federal land acquisitions. No net loss of private 
lands will provide that discipline.
    Thank you, again, Mr. Chairman for allowing me to testify 
on this important issue. Time is now for Congress to assert 
real authority and inject discipline into Federal land 
management agencies like the Park Service. Only this can save 
our national parks and treasures, and I will be happy to answer 
any questions you may have.
    [The prepared statement of Mr. Knight follows:]

    [GRAPHIC] [TIFF OMITTED] T3406.041
    
    [GRAPHIC] [TIFF OMITTED] T3406.042
    
    [GRAPHIC] [TIFF OMITTED] T3406.043
    
    [GRAPHIC] [TIFF OMITTED] T3406.044
    
    [GRAPHIC] [TIFF OMITTED] T3406.045
    
    [GRAPHIC] [TIFF OMITTED] T3406.046
    
    [GRAPHIC] [TIFF OMITTED] T3406.047
    
    [GRAPHIC] [TIFF OMITTED] T3406.048
    
    [GRAPHIC] [TIFF OMITTED] T3406.049
    
    [GRAPHIC] [TIFF OMITTED] T3406.050
    
    [GRAPHIC] [TIFF OMITTED] T3406.051
    
    [GRAPHIC] [TIFF OMITTED] T3406.052
    
    [GRAPHIC] [TIFF OMITTED] T3406.053
    
    [GRAPHIC] [TIFF OMITTED] T3406.054
    
    [GRAPHIC] [TIFF OMITTED] T3406.055
    
    [GRAPHIC] [TIFF OMITTED] T3406.056
    
    [GRAPHIC] [TIFF OMITTED] T3406.057
    
    [GRAPHIC] [TIFF OMITTED] T3406.058
    
    [GRAPHIC] [TIFF OMITTED] T3406.059
    
    [GRAPHIC] [TIFF OMITTED] T3406.060
    
    [GRAPHIC] [TIFF OMITTED] T3406.061
    
    [GRAPHIC] [TIFF OMITTED] T3406.062
    
    [GRAPHIC] [TIFF OMITTED] T3406.063
    
    [GRAPHIC] [TIFF OMITTED] T3406.064
    
    [GRAPHIC] [TIFF OMITTED] T3406.065
    
    [GRAPHIC] [TIFF OMITTED] T3406.066
    
    [GRAPHIC] [TIFF OMITTED] T3406.067
    
    [GRAPHIC] [TIFF OMITTED] T3406.068
    
    [GRAPHIC] [TIFF OMITTED] T3406.069
    
    [GRAPHIC] [TIFF OMITTED] T3406.070
    
    [GRAPHIC] [TIFF OMITTED] T3406.071
    
    [GRAPHIC] [TIFF OMITTED] T3406.072
    
    [GRAPHIC] [TIFF OMITTED] T3406.073
    
    [GRAPHIC] [TIFF OMITTED] T3406.074
    
    [GRAPHIC] [TIFF OMITTED] T3406.075
    
    [GRAPHIC] [TIFF OMITTED] T3406.076
    
    [GRAPHIC] [TIFF OMITTED] T3406.077
    
    [GRAPHIC] [TIFF OMITTED] T3406.078
    
    [GRAPHIC] [TIFF OMITTED] T3406.079
    
    [GRAPHIC] [TIFF OMITTED] T3406.080
    
    [GRAPHIC] [TIFF OMITTED] T3406.081
    
    [GRAPHIC] [TIFF OMITTED] T3406.082
    
    [GRAPHIC] [TIFF OMITTED] T3406.083
    
    [GRAPHIC] [TIFF OMITTED] T3406.084
    
    Mr. Souder. Let me thank each of you for your testimony 
today. And if there are any materials you want to submit for 
the record--and I didn't say this at the beginning, most of you 
probably know this, our intention is to have a series of field 
hearings in between. Each hearing that every committee does 
comes out with a hearing book that then becomes a reference for 
people to go and look at. So what you put in as supplementary 
materials goes into that, and we may be doing a plan--a final 
summary report. So it is helpful in the particular data here of 
this hearing being an overview of things we might want to look 
at or how to look at--and clearly, anybody who isn't exposed to 
this and every time I go to any hearing, I learn that, oh, the 
Park Service does this, too, that the scope and the breadth is 
overwhelming. There is no way this committee is going to get 
into these type of things. It becomes a matter of targeting.
    Right now, however, we are trying to see the breadth so we 
can figure out what type of scope we are going to have and how 
to get into it, because fundamentally what we are looking at in 
these hearings is much broader than what we deal with usually 
in the Resources Committee, which tends to be focused either on 
a specific problem that has been raised or in a--I am not 
saying they never deal with the broader problem or a particular 
bill. But this is a comprehensive look at what systems and 
structural changes and strategy changes do we need, and try to 
see where, and accommodate different points of view.
    Now, let me ask Mr. Galvin--and I know we will have a 
continuing discussion with this. And then I want to ask a 
couple--I want to ask Ms. Long this, too. Is there specific 
information that is not currently publicly available that you 
believe this committee might want to seek that would be helpful 
in determining scope and data as to some of this information?
    And if you can't think of it off the top of your head, if 
you can suggest that to us, because as I have clearly explained 
to the Park Service multiple times, that all data has to be 
made available that is in a public source to an oversight 
committee. There is not the option of declining to give it to 
us, whether it is e-mails, whether it is letters, whether it is 
tentative reports.
    For example, those who watched our steroids hearing in this 
committee know we can also, even in nongovernment agencies, if 
they have antitrust exemption and so on, ask them for briefing 
memos. The only claim that is justified is executive privilege. 
And even executive privilege or predecisional information is 
fairly limited.
    Now, this isn't an effort to try to get every document that 
is out there. We get overwhelmed. When we were doing the look 
at the FBI files, often we would get like a wheelbarrow of 
information. There is no way to sort it through. What we are 
looking for is relevant information for public policy. This is 
taxpayers' dollars. And we are trying first to determine scope.
    Mr. Martin seems very willing to share, but our problem is, 
is we don't even know what to request in some cases. And I 
wondered if you have any suggestions to make here on process?
    Mr. Galvin. Well, in the broad scopes of the committee's 
purview, I think most of the information related to this 
problem is publicly available through the National Park Service 
Budget. In the more narrow scope, I think with respect to 
Homeland Security, I understand that there are some proposals 
to significantly modify the way the National Park Service does 
law enforcement, hiring nothing but permanent employees. I 
think that would be very relevant to the committee's inquiry 
with respect to the impact of Homeland Security on the National 
Park Service.
    Also, I understand that there is a revision of the 
management policies proposed by the Department of Interior. 
That may be predecisional. But, generally speaking, I think 
most of the big problems are publicly available.
    Mr. Souder. To what extent do you think it will be 
difficult to get--I mean, you have used the example of not 
filling a vacancy and moving to seasonal employees. Does such 
data exist at regional offices, at the national, or is this 
almost like you would have to get every park's information and 
assemble it? Does the National Park Service keep this data?
    Mr. Galvin. No. Decisions like that are pretty much made at 
the park level, and the record of them is at the park level. 
They are essentially decisions made by individual 
superintendents, once they get their budget allowance.
    Mr. Souder. And are those park records public?
    Mr. Galvin. Well, there is a legal requirement that each 
park superintendent publish a financial statement every year. 
Generally speaking, I would say those statements are not 
consistent with respect to tracking positions. But I think 
legally they would be required, and at least two separate 
pieces of statute.
    Mr. Souder. And so if we picked a region and ask for the 
parks in that region, how many vacancies do you have----
    Mr. Galvin. That could be provided.
    Mr. Souder. And how many and how long those vacancies have 
been vacant?
    Mr. Galvin. That would be trackable.
    Mr. Souder. And we would then be able to--and I also don't 
want to be overly burdensome for things that aren't relevant, 
but obviously these things become very relevant when we are 
looking at are you meeting your scope and needs, and we talk 
about do you have rangers here, what is up, what is down, 
that--are we, in assembling such data, how hard would that be 
to assemble?
    In other words, if I made such a request like that, I mean, 
I know how--we run into this with multiple agencies, how many 
Congressmen, multiple Congressmen. I mean, I have been 
systemically talking to each member of this committee, and they 
are very supportive of the whole direction, as well as the full 
committee. So that we have a lot of leeway to work here. At the 
same time, none of us are trying to do unnecessary--in other 
words, pulling rangers out of talking to visitors so they are 
trying to do question responses to Congress. On the other hand, 
we have oversight responsibility here. How hard is this data to 
pull together?
    Mr. Galvin. Well, I don't think the committee needs to pull 
it together out of 388 parks. I think a well-designed sample 
would provide a valid story. I mean, I think that the condition 
of personnel management in parks is pretty much the same in any 
region, it is pretty much the same at each park. Small parks 
may be even tighter than large ones. But I think you would find 
that story, given the past history of the park appropriation, 
at every park. That is, they would be surrendering permanent 
vacancies to cover seasonal needs.
    Mr. Souder. Let me ask you one other kind of technical 
question that is my assumption. Looking at other agencies where 
we have these kinds of problems, that every agency in the 
Federal Government right now--almost every agency is having 
difficulties with staffing. The dollars aren't keeping up with 
the cost of living. At this point I am not arguing that 
government employees are underpaid. We certainly could never 
make that argument in our congressional districts. But at the 
same time, there has been a lot of cross-pressure because of 
the health and pension systems. In the Park Service, since it 
is highest rated, there is not--it is very hard for people to 
get in, not that many people leave until their time is up. And 
I assume, although there has been some transition in park 
superintendents lately, that there is more or less an aging 
process occurring inside the park system, which means many of 
the people are in under the old health care and pension 
systems. You don't have the turnover that you have in a lot of 
other agencies where they come in for 5 or 10 years, never 
really get fully vested in the pension programs, never really 
are under the old retirement systems.
    What pressure is disproportionately being put on the Park 
Service, and is that easy to quantify? Is it there?
    Mr. Galvin. Well, on a nationwide basis, I am sure the 
budget office could hang numbers on both the old pension system 
and the new pension system. My perspective is that the old 
pension system is fading as gaffers like me leave under the old 
system. But going to the new system, the so-called FERS system, 
which has to be financed by the agency, has made a considerable 
impact on the ability of parks to provide services per unit 
dollar. The percentage budgeted for that particular system is 
much higher than it was in the old system, because it has to be 
fully funded by the agency. But, yes, the budget office could 
certainly provide a nationwide analysis of the impact of that 
on parks.
    Mr. Souder. Do you believe that drives permanent versus 
seasonal?
    Mr. Galvin. Oh, absolutely. Because the park superintendent 
is just looking at a bottom line; $5 million, $1 million, how 
can I deploy seasonals? And, by the way, this is not either new 
or partisan. When I ran the roads and trail system in Mount 
Rainier back in the 1960's, you know, our classic tactic was to 
keep--the fiscal year used to end on June 30th, and we wouldn't 
bring on the trail crews until July 1st if we had a big snow 
year and were short of money. So delaying seasonals, grabbing 
permanent vacancies to cover seasonals is a sort of classic 
strategy at the park level.
    Mr. Souder. Thank you.
    Ms. Long, I want to thank you as--when you say past chair, 
that is really recent past chair.
    Ms. Long. That is very recent. That is just a week ago.
    Mr. Souder. I want to thank you for your strong support of 
your association and your wonderful testimony today, and will 
continue looking forward to working with all the regional areas 
as we move through the hearings and also continuing to provide 
data for us as we work through and how to highlight. We are 
even to some degree trying to decide how much of this we do 
thematically, how much of this we do geographically, identify 
some of the different problems.
    The constraint here is, obviously, the number of hearings 
and how we want to do this. But I want to thank you. And each 
of the groups will continue to work with--you heard me ask, and 
there are just a flood of questions that come out. As I told 
you at the beginning, my biggest problem is I only have one 
plane I can get to Indiana; and, in fact, Mr. Cummings ran into 
the same problem. He has a speech in Indianapolis tonight and 
he could only get one flight out that was earlier than mine, so 
he was taking off to Indiana as well.
    But let me suggest a couple of things. I would appreciate 
if you can each give me maybe a brief comment here, but to look 
at some additional written comments. One is that where park by 
park and many Americans--and this is one of the things we are 
wrestling with this, is we have the kind of crown-jewel system, 
we have then the kind of the--which tends to be favored by the 
natural parks. Then you have this huge question of the cultural 
parks, of which you kind of have another word of crown jewels 
for that. Then you have a whole range of parks. Then you have 
parks that kind of the Park Service got involuntarily, which my 
friend Jim Ridenhauer says now are called ``park barreling,'' 
which of course started with getting the first four parks 
that--where Congress mandates things that the Park Service 
wouldn't have necessarily wanted. And then--but that would be 
kind of the traditional park system.
    Then we developed the heritage areas, which Mr. Ridenhauer 
developed because he felt that the Park Service was getting too 
many parks that were under--so it was kind of ironic that the 
heritage areas were developed because they didn't want the 
Federal Government to own the land. The heritage areas were 
developed because they didn't want them fully under the Park 
Service.
    Now, what has happened is we have had this proliferation of 
cooperative type of agreements. In other words, because the 
idea was not to add the direct land to the Federal Government, 
we have seen this proliferation of--and the most common thing 
right now currently, particularly with this administration 
saying no net new land most of the time, that is that the Park 
Service is given responsibility to coordinate but only be a 
partner with it. And partly in the budget, then, you don't have 
as much direct control. It is not favored by the Park Service 
and the budget advocates, and this ranges from the whole thing 
of historic preservation. It gets into much of what Ms. Wadhams 
testified about, whether it is Indian, Native American 
questions; it gets into building preservation-type things, 
trails, a whole range of categories that most people don't even 
realize are there that the Park Service works with and goes to 
meetings with and provides resources for.
    Now, my question is, do you think that this is a healthy 
trend, a manageable trend, should be increased, decreased? How 
much should this be looked at as its impact on the park budget? 
Because it is clearly a bigger and bigger portion and a 
potential management nightmare. I don't even know how you begin 
to get ahold of it. Any comments here? And would you submit 
comments for the record?
    Mr. Knight.
    Mr. Knight. Yes. Thank you, Mr. Chairman.
    That is the crux of one of the issues, your example about 
heritage areas, when you are talking about public and private 
partnerships. Well, one example of how this has gone already is 
the Rivers of Steel Heritage Area in Pennsylvania. Since its 
inception, it has openly been nothing but a lobby on behalf of 
the Park Service for a future national or a future urban park 
within the boundaries of the heritage area.
    There is a bill before this Congress right now, I think the 
sponsor is Senator Arlen Specter, which would grant that 
heritage area and the Park Service land acquisition authority 
to create a 30 or 40-acre urban national park within there.
    So when you are talking about these partnerships and what 
role the Park Service plays, oftentimes it is a much more 
heavy-handed role than they purport. So. And it is part of the 
backlog problem as well.
    Mr. Souder. Any other comments on the heritage area 
questions, or other? One of the challenges--and I think this is 
a huge question on the Santa Monica, Golden Gate, and Gateway--
those are the three highest attended areas, I believe, in the 
whole National Park Service, and that we are talking in terms 
of 14 million versus 3 million.
    And then the question is, how do you count Jones Beach? Is 
that something that is a traditional national park function? 
These are huge questions. And the real challenge to me came 
from the Yosemite Park superintendent a number of years ago 
when he said: If you take visitation beyond 50 miles, the 
percentage of people visiting--maybe it is 100 miles, and this 
may have come from--I am blanking on the name of the wonderful 
superintendent at Golden Gate. If you take beyond 100 miles, 
the percentage of visitation at Golden Gate from beyond 100 
miles is greater than the percentage at Yosemite, which is 
counterintuitive. You think of Yosemite as people coming for a 
big family vacation and you think of Golden Gate as a city 
park. But in fact, because conventions come in, because people 
go to the city of San Francisco and visit, that means that the 
bulk of the people or a higher percent of the people using 
Golden Gate are not local than Yosemite.
    And it shows how we are, in thinking about our park system, 
we kind of think of it in terms of the crown jewels. And in 
terms of budgeting, that is not true. In terms of expenditures, 
that is not true. In terms of visitation, that is not true. And 
how do we adapt and figure out what we actually have as a 
national park system here?
    Mr. Galvin. Mr. Chairman, if I might. I worked in New York 
City when Gateway was established, and it was established 
during the Nixon administration; and it was concurrently 
established with Golden Gate, where I did not work in San 
Francisco, but I have had a lot of experience with Golden Gate.
    If you read the hearings leading up to the creation of 
those two parks, there was a very strong equity principle 
expressed by the administration and the Congress. It sort of 
went like this: The people who live adjacent to Gateway will 
probably never get to Yellowstone, and therefore they deserve 
the services that a National Park Service can provide.
    Now, whether or not that principle is correct, it was an 
important selling point during the Nixon administration for 
those parks. But I think in both cases, and in the case of 
Gateway you had a suite of interests from Reese Park to 
abandoned--or to military bases that were closing. And the only 
convener, in a sense, of that suite of real estate that the 
Congress could find was the National Park Service.
    Certainly New York Harbor is a nationally significant 
resource, as is San Francisco Bay. Both of those parks I think 
have served the public extremely well, both in terms of their 
original intent, that is, to provide recreational services to 
urban populations, but also in the protection of important 
historic resources for the Nation at large and natural 
resources as well.
    Mr. Souder. Well, I thank you each for your testimony. We 
are going to submit a series of written questions to each one 
of you, if you can respond. I have some particularized that--I 
didn't see Ms. Norton come in.
    Let me yield to Ms. Norton. Let me at least say one other 
thing on the historic; that in the historic, how we would 
prioritize--because we are not going to be able with the 
dollars to maintain every single historic or structure that 
will move toward historic in the Park Service.
    And then, second, on what basis we determine what is 
culturally significant versus what is naturally significant, 
which became a huge issue at Gettysburg when those tradeoffs 
with their vistas versus cultural.
    And we will want to get that from other groups as well, 
because that is another huge question, and see whether we are 
going to do that.
    Ms. Norton, thank you for coming.
    Ms. Norton. Well, thank you very much, Mr. Chairman. And 
although you have heard me say that your tastes this year have 
become a bit more eclectic in hearings, I did want to stop by 
this hearing, as I stopped by for a few minutes in your last 
hearing. I have to go speak to some senior citizens, but I am 
very intrigued by this hearing, because the network, of course, 
of national parks in our country is unusually broad and 
comprehensive.
    These parks are such great treasures. And we in the 
District of Columbia feel very fortunate at the number of 
extraordinary national parks, some within our city in small 
plots of land, and the two great national parks in our city, 
the National Mall, and Rock Creek Park.
    I have been working with some of my own constituents and 
people outside of the District who are concerned about the fate 
of the National Mall, which of course receives literally 
millions of visitors every year. It may not be Yellowstone 
Park, it is a smaller plot of land, which means that of course 
it has taken its share of beatings. And the Mall doesn't look a 
lot--the biggest change in the Mall since I was a child growing 
up in Washington are those horrific Navy barracks that were 
there during World War II were finally taken away. But in a 
real sense, it is not the inviting place to walk that similar 
parks across the country are. And some have proposed that the 
Mall be put into a conservancy. The difference is that some of 
the parks in conservancies, like Central Park, for example, had 
wonderful businesses that surrounded them who took on some of 
the costs of maintaining the park and bringing the park alive. 
But I think the entire Congress has a huge investment in what 
happens to the Mall and the way it looks now, and in making it 
truly inviting; not simply to look at as you go into one of our 
great museums, but as a place to be, to rest, to enjoy.
    The other, of course, great park is one that most Americans 
would die for, and that is Rock Creek Park. And that is a great 
neglected park. It is a kind of wilderness. I have to tell you, 
when I was a child, the Rock Creek Park in the District of 
Columbia, that wasn't nearly the cultural mecca it has become 
today, was a great meeting place for residents on both sides of 
the park. The park does not have a lot of crime in it. It has 
some, but it isn't known for crime. And yet Rock Creek Park has 
been poorly maintained. There is insufficient appreciation of 
what it means to have this great wilderness in your own city, 
so that you don't have to travel long distances if you really 
wanted to see what that kind of nature was like.
    I think that both the Congress and locally we have devalued 
what it means to have such a great park. Of course, the 
District of Columbia has to keep up its own parks. Here is a 
national park, it is for the national government to keep it up.
    I am all too aware of the great pressures, financial 
pressures on the Park Service, but I hope that this hearing 
will be counted among the many efforts that I think are going 
to begin, Mr. Chairman, this year to try to focus Congress more 
on what wonderful treasures these parks are, what is happening 
to them before our very eyes. And when you see something 
somehow becoming less beautiful before your eyes, you don't see 
it nearly the way you would if you went away for 5 years and 
came back and you say, my goodness, what happened to the Mall? 
Or when I go in to Rock Creek Park, to say, is this the same 
Rock Creek Park that we came into for outings all through the 
summer and spring? And why don't tourists--why aren't tourists 
who come to our city invited on tours through Rock Creek Park 
to see that their National Capital has this wonderful 
wilderness within it, and, to the great glory of the Congress, 
preserved.
    They know about the zoo; they go to the zoo. But there is 
no invitation to go into Rock Creek Park. Of course, you may 
drive through it if you are going to one part of the city or to 
Maryland. But all of this, it seems to me, is a waste of one of 
the most glorious resources we have here. And so I appreciate 
the attention you are drawing to our national parks throughout 
the country, Mr. Chairman.
    Mr. Souder. I thank the gentlelady. One problem is 
theoretically this subcommittee has oversight jurisdiction over 
70 percent of the Federal budget, which means we cover less of 
a percentage of what we could cover than any other subcommittee 
in Congress. So we kind of pick and choose, and we are trying 
to develop a little wider scope to try to do our different 
agencies. And that what you hear and what I have been finding, 
because unlike the Resources Committee which is mostly people 
who have long been interested in this issue, this committee is 
different. The people didn't get on the Government Reform 
Committee or the subcommittee because of an issue like this. 
Yet there is a passion. And part of this that is really 
changing in America, particularly the western Republicans tend 
to feel that there is absolutely too much land in the public 
domain, particularly of BLM and Forest Service use changed.
    And some areas, people have been sitting next to me, have 
97 percent in public land. In Indiana it is 3 percent public 
land counting city, county, State, and township. And that what 
you see is a drive east of the Mississippi that has 
precipitated this diversity of the Park Service, as Mr. Galvin 
mentioned about New York, and looking as people want more 
trails, as people want their historic sites preserved, and they 
want them regionally.
    You heard Mr. Cummings talk about people in his city not 
being able to go to Disney World. They are asking much closer, 
how do we accommodate this, how are we going to do this, how do 
we accommodate new and expansive subsections of our thing? And 
it is a lot tougher in the urban areas in the east, because you 
get into all kinds of land rights questions much more, 
questions about values of property, the difficulties that we 
run into, and some of the Civil War battlefields around 
Manassas.
    So we will try to get this scope, but what we are 
ultimately doing here is saying, do we have adequate resources 
to develop the parks and maintain them and protect them for 
future generations like they were passed to us?
    And then the second question with this is, is there a 
vision, like Mr. Galvin referred to Mission 66, is there a 
vision of where the Park Service is headed?
    In other words, there are two aspects of this. One is, can 
we sustain it? And the second is, what are we looking to leave 
our kids? What are we trying to protect in our heritage? We 
never evaluate, as was alluded to by Ms. Long, we really don't 
evaluate. It is like we, other than at the very beginning, 
hardly anything ever goes off once it gets in. And maybe we 
have to make some of those kind of decisions. But we certainly 
need to look at prioritizing and making sure that this system 
reflects where we want to go. And, one way or another, we are 
going to force some of those kind of discussions.
    I thank you each for coming today. And, with that, the 
subcommittee stands adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3406.085

[GRAPHIC] [TIFF OMITTED] T3406.086

[GRAPHIC] [TIFF OMITTED] T3406.087

[GRAPHIC] [TIFF OMITTED] T3406.088

[GRAPHIC] [TIFF OMITTED] T3406.089

[GRAPHIC] [TIFF OMITTED] T3406.090

[GRAPHIC] [TIFF OMITTED] T3406.091

[GRAPHIC] [TIFF OMITTED] T3406.092

[GRAPHIC] [TIFF OMITTED] T3406.093

[GRAPHIC] [TIFF OMITTED] T3406.094

[GRAPHIC] [TIFF OMITTED] T3406.095

[GRAPHIC] [TIFF OMITTED] T3406.096

[GRAPHIC] [TIFF OMITTED] T3406.097

[GRAPHIC] [TIFF OMITTED] T3406.098

[GRAPHIC] [TIFF OMITTED] T3406.099

[GRAPHIC] [TIFF OMITTED] T3406.100

[GRAPHIC] [TIFF OMITTED] T3406.101

                                 <all>

</pre></body></html>
